<html>
<title> - VOTING RIGHTS AND ELECTION ADMINISTRATION IN AMERICA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                                               
           VOTING RIGHTS AND ELECTION ADMINISTRATION IN AMERICA

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS
                       

                         SUBCOMMITTEE ON HOUSE
                         
                             ADMINISTRATION
                             
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             
                             FIRST SESSION

                               ----------                              

                            OCTOBER 17, 2019

                               ----------                              

      Printed for the use of the Committee on House Administration
      
      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       Available on the Internet:
                       
         https://govinfo.gov/committee/house-administration


                               ______



                  U.S. GOVERNMENT PUBLISHING OFFICE
                
38-145                     WASHINGTON: 2019






                            C O N T E N T S

                              ----------                              

                            OCTOBER 17, 2019

                                                                   Page
Voting Rights and Election Administration in America.............     1

                           OPENING STATEMENTS

Chairwoman Marcia L. Fudge.......................................     1
    Prepared statement of Chairwoman Fudge.......................     4
Hon. Rodney Davis, Ranking Member................................     6
    Prepared statement of Ranking Member Davis...................     8
Chairwoman Zoe Lofgren...........................................    11
    Prepared statement Chairperson Lofgren.......................    12

                               WITNESSES

Kristen Clarke, President and Executive Director, Lawyers' 
  Committee for Civil Rights Under Law...........................    13
    Prepared statement of Ms. Clarke.............................    15
Dale Ho, Director, Voting Rights Project.........................    28
    Prepared statement of Mr. Ho.................................    30
Deuel Ross, Senior Counsel, NAACP Legal Defense Fund.............    47
    Prepared statement of Mr. Ross...............................    49
Hon. Catherine E. Lhamon, Chair, U.S. Commission on Civil Rights.    66
    Prepared statement of Hon. Lhamon............................    69
Brenda Wright, Senior Advisor for Legal Strategies, Demos........    76
    Prepared statement of Ms. Wright.............................    78
Michael Waldman, President, Brennan Center for Justice...........    89
    Prepared statement of Mr. Waldman............................    91
Elena Nunez, Director of State Operations and Ballot Measure 
  Strategies, Common Cause.......................................   101
    Prepared statement of Ms. Nunez..............................   103
Hannah Fried, Director, All Voting Is Local......................   120
    Prepared statement of Ms. Fried..............................   123
Virginia Kase, Chief Executive Officer, League of Women Voters...   138
    Prepared statement of Ms. Kase...............................   140
Barbara Arnwine, National Co-Chair, National Commission for Voter 
  Justice........................................................   144
    Prepared statement of Ms. Arnwine............................   146
Denise Lieberman, Senior Attorney and Program Director, Power and 
  Democracy, Advancement Project.................................   150
    Prepared statement of Ms. Lieberman..........................   152
John C. Yang, President and Executive Director, Asian Americans 
  Advancing Justice..............................................   164
    Prepared statement of Mr. Yang...............................   167
Arturo Vargas, Chief Executive Officer, NALEO Educational Fund...   182
    Prepared statement of Mr. Vargas.............................   184
Thomas Saenz, President and General Counsel, MALDEF..............   201
    Prepared statement of Mr. Saenz..............................   203
Michelle Bishop, Voting Rights Specialist, National Disability 
  Rights Network.................................................   208
    Prepared statement of Ms. Bishop.............................   210

                       SUBMISSIONS FOR THE RECORD

Brennan Center for Justice, Purges: A Growing Threat to the Right 
  to Vote........................................................   222
Brennan Center for Justice, Voter Purge Rates Remain High, 
  Analysis Finds August 1, 2019..................................   255
Leadership Conference Education Fund, Democracy Diverted: Polling 
  Place Closures and the Right to Vote September 2019............   261
NAACP Legal Defense and Educational Fund, Analysis of Barriers to 
  Voting in the 2018 Midterm Elections...........................   343
Reverend Jesse L. Jackson, Sr., Founder and President, Rainbow 
  PUSH Coalition, statement......................................   383
Rhode Island Advisory Committee to the U.S. Commission on Civil 
  Rights, Advisory Memorandum on Voting Rights Briefing..........   388
North Dakota Advisory Committee to the U.S. Commission on Civil 
  Rights, Concern for Potential voter Suppression October 26, 
  2018...........................................................   394
Alaska Advisory Committee to the U.S. Commission on Civil Rights, 
  Alaska Native Voting Rights....................................   396
Louisiana Advisory Committee to the U.S. Commission on Civil 
  Rights, Barriers to Voting in Louisiana........................   464
Illinois Advisory Committee to the U.S. Commission on Civil 
  Rights, Civil Rights and Voting in Illinois....................   503
California Advisory Committee to the U.S. Commission on Civil 
  Rights, Voting Integrity in California.........................   712
Kansas Advisory Committee to the U.S. Commission on Civil Rights, 
  Voting Rights and the Kansas Secure and Fair Elections Act.....   771
New Hampshire Advisory Committee to the U.S. Commission on Civil 
  Rights, Voting Rights in New Hampshire.........................   848
Indiana Advisory Committee to the U.S. Commission on Civil 
  Rights, Voting Rights in Indiana...............................   877
Texas Advisory Committee to the U.S. Commission on Civil Rights, 
  Voting Rights in Texas.........................................   893
Transformative Justice Coalition, 61 Forms of Voter Suppression..   916
Racial Equity Anchors Collaborative, We Vote, We Count: The Need 
  for Congressional Action to Secure the Right to Vote for All 
  Citizens.......................................................   920




 
          VOTING RIGHTS AND ELECTION ADMINISTRATION IN AMERICA

                              ----------                              


                       THURSDAY, OCTOBER 17, 2019

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 1310, Longworth House Office Building, Hon. Marcia L. 
Fudge [chair of the Subcommittee] presiding.
    Present: Representatives Fudge, Aguilar, Davis of Illinois, 
and Lofgren.
    Staff Present: Sean Jones, Legislative Clerk; David Tucker, 
Senior Counsel and Parliamentarian; Sarah Nasta, Elections 
Counsel; Peter Whippy, Communications Director; Veleter Mazyck, 
Chief of Staff, Office of Representative Fudge; Evan Dorner, 
Office of Representative Aguilar; Courtney Parella, Minority 
Communications Director; Cole Felder, Minority General Counsel; 
Jesse Roberts, Minority Counsel; Jen Daulby, Minority Staff 
Director; Tim Monahan, Minority Oversight Director; and Carson 
Steelman, Minority Professional Staff.
    Chairwoman Fudge. If our witnesses could come to the table, 
please.
    Good morning. The Subcommittee on Elections of the 
Committee of House Administration will come to order.
    I would like to thank the Members of the Committee as well 
as our witnesses and those in the audience for being here 
today.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and that any written 
statements be made part of the record.
    Hearing no objection, so ordered.
    We are here today to examine the state of voting rights and 
election administration in America. The right to vote is 
sacred, and as Members of Congress, we take our responsibility 
to protect access to the ballot very seriously.
    This Subcommittee, and our Committee as a whole, is charged 
with overseeing the administration of Federal elections. This 
country has a long history of failing to ensure equal and 
unencumbered access to the ballot for all her citizens. And 
while States and localities have a significant role in carrying 
out elections, Congress cannot abdicate its critical 
responsibility to ensure every eligible American can access the 
ballot box, cast a ballot free from discrimination and 
suppression, and has a steadfast faith in our democratic 
process that their ballot will be counted as cast.
    Since the beginning of the 116th Congress, this 
Subcommittee has been holding field hearings across the 
country, convening forums to hear from voting and election 
advocates, experts, community leaders, litigators, and voters 
about the state of voting rights and election administration in 
their communities.
    We have been listening closely and collecting testimony and 
evidence regarding the wide range of methods of voter 
suppression and discrimination being deployed across the 
Nation. Throughout our hearings in Brownsville, Texas; Atlanta, 
Georgia; Standing Rock Sioux Reservation, North Dakota; 
Halifax, North Carolina; Cleveland, Ohio; Ft. Lauderdale, 
Florida; Birmingham, Alabama; and Phoenix, Arizona, the 
Subcommittee has heard testimony on barriers new and old.
    We have heard testimony about how polling place closures, 
consolidations, and movements cause confusion for voters and 
lead to long lines and wait times that are unacceptable for the 
integrity of our democracy; how restrictions and cutbacks to 
early voting disenfranchises voters, especially those with 
limited transportation options or inflexible work hours; strict 
voter ID requirements that can be overly burdensome on the poor 
and minority voters and create a modern day poll tax.
    Discriminatory voter-purge practices can disproportionately 
impact otherwise eligible minority voters. Denying the right to 
vote to nearly 6 million formerly incarcerated individuals 
fundamentally undermines our democracy and continues to deny 
citizens their constitutional right. How Native American 
communities have faced more than 200 years of discrimination, 
disenfranchisement, and voter suppression, which continues to 
this day, and is exacerbated when Tribes are not consulted when 
States and the Federal Government craft voting laws.
    The lack of adequate access to properly translated 
materials and language assistance at the polls disenfranchises 
protected voters. And how litigation under Section 2 of the 
Voting Rights Act, remains a critical tool for protecting the 
franchise but is not an adequate remedy to enforce such a 
fundamental right.
    Today's hearing will expand upon these issues, providing us 
with a national scope and stories from States the Subcommittee 
has yet to visit. We will hear from experts, advocates, 
litigators, and leaders who have worked for years to ensure 
every American can exercise his or her right to vote. Your 
testimony will help guide us as this Committee seeks to 
understand what needs to be done to safeguard our elections and 
guarantee access to the ballot box.
    Nearly 6 years after the Supreme Court decided Shelby 
County v. Holder, we are doing this work because voter 
suppression and discrimination still exists. It is our duty as 
elected Members of Congress to uphold and defend the 
Constitution and protect the rights of the voter. Chief Justice 
Roberts himself said, ``voting discrimination still exists, no 
one doubts that.'' It is critical Congress continuously examine 
the state of voting in America and build a true contemporaneous 
record of ongoing discrimination and barriers to voting. That 
is why we are here today.
    America is great because of her ability to repair her 
faults. It is time for us to set the right example as a 
democracy and encourage people to vote, rather than continuing 
to erect barriers that seek to suppress the vote and the voices 
of our communities. There is much work to be done.
    I will now yield to the Ranking Member, Mr. Davis of 
Illinois, for your opening statement.
    [The statement of Chairwoman Fudge follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    The Committee on House Administration has the extremely 
important task to conduct oversight of Federal elections. 
Throughout the Committee's existence, Republicans and Democrats 
have worked across the aisle to create significant election 
policy that widely impacted this Nation, including legislation 
to eliminate the poll tax, legislation to create easier access 
to members of the military and their families when voting 
overseas, and the Help America Vote Act of 2002, a landmark 
piece of legislation that took substantial steps to remedy the 
problems seen during the 2000 Presidential election.
    The Subcommittee on Elections was created for the primary 
purpose to be an extension of House Administration to enhance 
the Committee's oversight capabilities of Federal elections and 
how these elections are administered. Chairwoman Fudge has been 
leading our Subcommittee with the intention to investigate 
voting rights issues in order to create a new formula that will 
reauthorize Section 5 of the Voting Rights Act. And I have been 
proud to travel to a few of the stops that this Election 
Subcommittee has participated in throughout the Nation, and it 
has been an educational experience each and every time and a 
great opportunity for, I think, everyone to see how we here on 
this side of the dais can work together to get things done.
    So thank you, Madam Chairwoman, for your diligence, and 
thank you for your willingness to talk about these issues, not 
just here in Washington, D.C.
    The Voting Rights Act, enacted in 1965, for the purpose of 
removing racial-based restrictions on voting, has historically 
been a bipartisan effort. This legislation was most recently 
authorized under a Republican President and a Republican 
Congress. In 2013, the Supreme Court determined Section 4 of 
the VRA to be unconstitutional, in Shelby County v. Holder. 
Chief Justice Roberts said the Voting Rights Act of 1965 
employed extraordinary measures to address an extraordinary 
problem.
    While the Court did not weigh in on whether there still is 
an extraordinary problem the Supreme Court did hold that what 
made sense at one time may have lost its relevance. They noted 
that nearly 50 years later, things have changed dramatically.
    VRA primarily remains under the jurisdiction of the House 
Judiciary Committee, but the House Administration Committee has 
an obligation to review how elections are administered and 
recognize if any issue should elevate from a State to a Federal 
level, which is what we all hope to do here today.
    This Subcommittee, as I said, has held--as Madam Chairwoman 
has said and I alluded to, has held seven field hearings and 
one listening session across the country in an effort to reveal 
widespread voter discrimination. Though the Subcommittee has 
yet to find a single citizen who wanted to vote but was unable 
to cast a vote, we still have a duty to the American people to 
protect and defend everyone's right to vote. As I have said 
many times since coming into my role as the Ranking Member of 
the House Administration Committee, and the lone member of the 
Election Subcommittee on our side of the aisle, the greatest 
threat to our election system is partisanship in the 
administering of elections.
    If there is clear evidence of intentional widespread voter 
discrimination, Congress should take steps to remedy that in a 
bipartisan manner. We must commit to diligently review the 
facts and the numbers carefully, as well as hear from all 
relevant stakeholders. We should take time to examine the voter 
registration trends and the voter turnout trends. It is 
essential that Congress make well-informed decisions and 
understand our role in assisting States, while not overpowering 
them.
    Voting is a fundamental right for every single American 
citizen, and protecting that right is a responsibility that I 
and everyone I serve with on my side of the aisle and the other 
side of the aisle take very seriously.
    Today, I am here to listen and learn more from our 
witnesses about voting rights and election administration. I 
look forward to hearing from all of you who have agreed to 
share their testimony with all of us this morning.
    And thank you, Madam Chairwoman. I yield back.
    [The statement of Mr. Davis of Illinois follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    I thank my friend, the Ranking Member, for participating 
and really understanding that our goal as a Congress is to get 
to the truth. So I appreciate that and I thank you.
    Now I will introduce our panel, but as I prepare to do 
that, let me go through some housekeeping matters. Each of you 
will be recognized for 5 minutes. I will remind our witnesses 
that their entire written statements will be made part of the 
record and that the record will remain open for at least five 
days for additional materials to be submitted. The lighting 
system which you have in front of you will tell you how much 
time you have remaining. You will have five minutes. Yellow 
means you have one minute left. Red means please wrap up your 
statement.
    Our first panel, we will hear from Kristen Clarke--
welcome--is President and Executive Director of the Lawyers' 
Committee for Civil Rights Under Law. The Lawyers' Committee 
seeks to promote fair housing and community development, 
economic justice, voting rights, equal educational opportunity, 
criminal justice reform--criminal justice, judicial diversity 
and more. Ms. Clarke previously served as the head of the Civil 
Rights Bureau for the New York State Attorney General's Office, 
and has spent several years at the NAACP Legal Defense and 
Educational Fund, and worked at the U.S. Department of Justice 
in the Civil Rights Division.
    Welcome.
    Dale Ho is the Director of the ACLU's Voting Rights Project 
and supervise--it is one of them days. It is been a tough day. 
Dale Ho is the Director of the ACLU's Voting Rights Project and 
supervisors--this is because it is written wrong--and 
supervised the ACLU's voting rights litigation and advocacy 
work nationwide. Mr. Ho has active cases in over a dozen States 
throughout the country and is also an adjunct professor of law 
at NYU School of Law. Prior to joining the ACLU, Dale was 
Assistant Counsel at the NAACP Legal Defense Fund, an associate 
at--Fried?
    Mr. Ho. Fried.
    Chairwoman Fudge [continuing]. Fried, Frank, Harris, 
Shriver, & Jacobson, LLP, and a judicial law clerk.
    Thank you, sir. Welcome.
    Deuel Ross--did I get it right?
    Mr. Ross. Deuel.
    Chairwoman Fudge. Deuel?
    Mr. Ross. Yes.
    Chairwoman Fudge. Deuel Ross serves as Senior Counsel at 
the NAACP Legal Defense and Educational Fund. In that capacity, 
Mr. Ross uses litigation, public education, and other advocacy 
strategies to ensure that Black people have equal access to the 
political process and to educational opportunities. Among his 
ongoing cases, Mr. Ross is lead counsel in Greater Birmingham 
Ministries v. Merrill, an ongoing Voting Rights Act lawsuit 
that challenges Alabama's racially discriminatory voter ID law. 
He was a member of the trial team that has coauthored the 
appellate briefs in Veasey v. Perry, the successful challenge 
to Texas' unconstitutional voter ID law. Mr. Ross is also an 
Adjunct Professor at the University of Pennsylvania Law School 
where he teaches a seminar course on the Voting Rights Act.
    Welcome all.
    And we have been joined by the Chairperson of the 
Committee, the whole Committee, Ms. Lofgren.
    The Chairperson. Well, thank you very much.
    You know, this Committee is charged with overseeing the 
administration of Federal elections, and in recognition of that 
responsibility, we established the Subcommittee on Elections. 
This Subcommittee has been led by its outstanding Chairwoman, 
Marcia Fudge. They have held eight hearings throughout the 
country, giving voice to many not generally heard in 
Washington, D.C., and convening this hearing today.
    You know, too many Americans view themselves as shut out of 
our representative system, and others can't participate because 
of election administration procedures that fail to consider how 
Americans live and work in the 21st century. Some of these 
barriers to participation make it harder for certain 
populations, including communities of color and other 
underrepresented groups, to vote. And this is especially the 
case after the Supreme Court gutted core provisions of the 
Voting Rights Act in Shelby County v. Holder.
    Additionally, we know now that foreign agents, specifically 
the Russians, attempted to interfere in American elections in 
2016. And as we discussed yesterday in the full Committee 
hearing, no single group has been targeted more with 
disinformation than African Americans. That is a voter 
suppression tactic.
    So we do know that, for years, the House has failed to 
adequately protect the right to vote. The House allowed 
discriminatory, suppressive laws to be enacted throughout the 
country, laws so discriminatory they targeted African 
Americans--and this is from a court case--with surgical 
precision.
    The work of the Subcommittee on Elections is critical to 
achieving the principle that every American has the right to 
vote, the right free from discrimination and from 
administrative barriers so cumbersome that they actually 
suppress the vote. We know it is time for Congress to act to 
ensure equal access to the ballot for every American.
    I look forward to the testimony today. And once again, I 
just want to thank the Chairwoman and the others on the 
Election Subcommittee who have worked so very hard to gather 
information throughout the United States for their outstanding 
work that serves our country so well.
    And with that, I yield back.
    [The statement of Chairperson Lofgren follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    And thank you for your support, Madam Chairperson. We could 
not have made these field hearings work without you. So we 
appreciate it.
    Ms. Clarke, you are now recognized for 5 minutes.

STATEMENTS OF KRISTEN CLARKE, PRESIDENT AND EXECUTIVE DIRECTOR, 
    LAWYERS' COMMITTEE FOR CIVIL RIGHTS UNDER LAW; DALE HO, 
    DIRECTOR, VOTING RIGHTS PROJECT; AND DEUEL ROSS, SENIOR 
               COUNSEL, NAACP LEGAL DEFENSE FUND

                  STATEMENT OF KRISTEN CLARKE

    Ms. Clarke. Chairwoman Fudge, Ranking Member Davis, and 
Members of the Subcommittee on Elections, my name is Kristen 
Clarke, and I serve as the President and Executive Director of 
the Lawyers' Committee for Civil Rights Under Law. Thank you 
for the opportunity to testify today on issues that are 
consequential to the fate of American democracy.
    The Lawyers' Committee for Civil Rights Under Law has been 
at the forefront of our Nation's battle for equal rights since 
it was created in 1963 at the request of President Kennedy to 
enlist the private bar in the fight to combat racial 
discrimination. Our work to safeguard voting rights and to 
fight voter suppression has been central to this mission. The 
Lawyers' Committee has been a leader in many of the core voting 
rights cases over the last several decades and stands at the 
forefront of current efforts to ensure that our laws safeguard, 
not restrict, access to the franchise. The Lawyers' Committee 
also leads Election Protection, the Nation's largest and 
longest running, nonpartisan voter protection program.
    In Shelby County v. Holder, Chief Justice Roberts observed 
that ``things have changed dramatically,'' in the South since 
passage of the Voting Rights Act, and that ``blatantly 
discriminatory evasions of Federal decrees are rare.'' Our 
experience and the record shows that this proclamation was not 
true in 2013 and remains untrue today. Modern-day voter 
suppression efforts are proliferating. Moreover, the Shelby 
decision opened the floodgates to discrimination and voter 
suppression. There is no doubt our Nation is currently in a 
period of retrenchment concerning access to the franchise.
    Since Shelby, the Lawyers' Committee has been involved in 
41 cases relating to discriminatory voting practices or 
policies that have had an adverse effect on the rights of 
African Americans and other minority voters. These instances 
are summarized in my written testimony.
    Twenty-four of these actions were filed since January 20, 
2017. Sadly, DOJ has filed no such cases during this timeframe. 
While we have achieved substantial success in about three-
quarters of these 24 cases, this is just the tip of the iceberg 
of potential voting rights violations that could be challenged 
by DOJ, were they actively enforcing the law in a restored 
Section 5.
    Without the prophylactic protections of Section 5, and 
given that parts of our country are becoming more racially 
diverse, we have seen voter suppression efforts intensify. 
Examples of the ways in which officials are working to 
undermine minority voting rights are outlined in my testimony 
and include barriers to voter registration; draconian 
requirements imposed on groups that are working to register 
people to vote; purge programs; restrictive mandatory photo ID 
laws; polling place closures, polling places moved to hostile 
locations like police departments; ineffective language 
assistance for LEP voters; long lines at polling sites due to 
staffing or machine issues; mass rejection of absentee ballots; 
faulty technology that risks votes not properly counted and 
systems subject to hacking; cuts on early voting opportunities, 
vote dilution, and racially gerrymandered maps.
    Case-by-case litigation is simply not enough to counter the 
magnitude of this threat. Writing for the dissent in Shelby, 
Justice Ginsburg observed that Congress passed the Voting 
Rights Act because requiring private individuals and civil 
rights groups to litigate every threat to voting rights was 
ineffective and extremely expensive, like battling the Hydra, 
the multiheaded monster in Greek mythology. These cases are 
costly, time-intensive, long and protracted, and for every case 
that we file, Americans have to wait months and sometimes years 
for a resolution to protect their right to vote. This is not 
sustainable.
    Even when courts strike a discriminatory law or practice, 
officials often resort to a slightly different practice, 
thrusting communities into a game of whack-a-mole. There is no 
better example of this than Georgia, where officials resurrect 
discriminatory practices repeatedly. In the post-Shelby era, 
local and State officials act with impunity when it comes to 
suppressing the rights of minority voters. Along with 
officials, we sued Georgia three times to stop its exact-match 
practice in voter registration.
    The record makes clear that Congress must restore the full 
protections of the Voting Rights Act. I urge this Committee and 
this Congress to carefully study the record amassed during the 
extensive hearings and field work and to fulfill the promise of 
our Constitution and restore protections needed to ensure that 
African Americans, Latinos, and other people of color enjoy 
equal voice in our democracy.
    Thank you.
    [The statement of Ms. Clarke follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairwoman Fudge. Thank you.
    Mr. Ho, you are now recognized for 5 minutes.

                      STATEMENT OF DALE HO

    Mr. Ho. Chairwoman Fudge, Ranking Member Davis, and Members 
of the Committee, thank you for the opportunity to testify. My 
name is Dale Ho, and I am the Director of the ACLU Voting 
Rights Project. My testimony today will focus on restrictions 
on voting based on false or exaggerated assertions about 
noncitizens registering to vote.
    Time and again, such claims have evaporated under minimal 
scrutiny. Take Kansas. In 2011, Kansas passed a law requiring 
voter registration applicants to submit a citizenship document, 
like a birth certificate or a passport. It sounds innocuous, 
but the effects were devastating.
    Over three years, more than 30,000 voter registration 
applicants were denied, about 12 percent of all applications 
during that period. One was our client Donna Bucci, who did not 
possess a copy of her birth certificate and couldn't afford 
one. Another was our client Wayne Fish, who was born on a 
decommissioned Air Force Base in Illinois and spent two years 
searching for his birth certificate. Two others were our 
clients Tad Stricker and T.J. Boynton, who actually showed 
their birth certificates at the DMV, which then failed to 
forward them along with their voter registration applications. 
All four were disenfranchised in the 2014 midterms.
    We challenged the law, and at trial, then Kansas Secretary 
of State Kris Kobach claimed that there were more than 18,000 
noncitizens registered to vote in Kansas. But his own expert 
witness at the trial estimated that of the 30,000 people whose 
registration applications were blocked under the law, more than 
99 percent were actually United States citizens. The court 
found that the number of noncitizens on the list was, in fact, 
statistically indistinguishable from zero.
    It took four separate lawsuits to block this law, which we 
did in 2018, but in his zeal to defend it, Kobach engaged in a 
disturbing pattern of evasion and lawlessness. He was 
sanctioned for concealing relevant documents. Kansas taxpayers 
paid a thousand dollar fine for that. The court found that he 
willfully disobeyed a preliminary injunction, and Kansas 
taxpayers paid approximately $26,000 for that. And the court 
found a, quote, pattern of flaunting disclosure and discovery 
rules, and ordered him to take 6 hours of continuing legal 
education.
    There is a similar story in Texas. In January, Texas 
Attorney General Ken Paxton tweeted, in capital letters, 
``voter fraud alert,'' claiming that almost 100,000 registrants 
in Texas were noncitizens. But that was false. Within a week, 
it came out that many of these voters were naturalized citizens 
who had already confirmed their citizenship. In Harris County 
alone, this translated to about 60 percent of 30,000 voters 
flagged there. And as to the remaining 12,000, an audit of 150 
names chosen at random yielded no noncitizens.
    Civil rights organizations, including MALDEF, the ACLU, and 
the Texas Civil Rights Project, sued to stop Texas from purging 
these voters. The court found that Texas ``created [a] mess,'' 
which ``exemplifie[d] the power of the government to strike 
fear and intimidate the least powerful among us.'' The case was 
settled with Texas taxpayers on the hook for $450,000 in costs 
and attorney fees. Texas' Secretary of State David Whitley 
departed from office in disgrace.
    There are similar stories of inaccurate purges in Florida, 
Iowa, and Virginia detailed in my written testimony.
    But the administration now seems intent on repeating these 
mistakes. In a case that I argued in the Supreme Court earlier 
this year, the Court blocked the administration's effort to add 
a citizenship question to the 2020 Census, finding that the 
administration's publicly stated purpose of Voting Rights Act 
enforcement was, quote, contrived. Indeed, the first person to 
suggest adding a citizenship question to the Census was the 
recently deceased Thomas Hofeller, known as the ``Michelangelo 
of gerrymandering,'' who conceived of it as the first step in a 
gerrymandering scheme that would be, in his words, 
``advantageous to Republicans and non-Hispanic Whites.'' In 
other words, the Administration's actual purpose was not to 
protect voting rights, but the opposite, to dilute the 
political influence of communities of color.
    Despite the Court's ruling, the Administration is still 
planning to produce citizenship data to facilitate 
gerrymandering. The Census Bureau is now asking States for 
driver's license records that include citizenship data. Now, 
leaving aside the illicit discriminatory purpose, there are 
serious questions about the accuracy of such data, as 
demonstrated by the experiences in Texas, Kansas, and other 
States described in my written testimony.
    In some, claims about widespread noncitizen registration 
have been used to justify restrictions that have prevented tens 
of thousands of Americans from voting, have often proved to be 
grossly exaggerated or downright false, and have undermined the 
public's confidence in our elections. That is the opposite of 
election integrity.
    Thank you. I look forward to answering any questions that 
you might have.
    [The statement of Mr. Ho follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
  
    Chairwoman Fudge. Thank you.
    Mr. Ross, you are recognized for five minutes.

                    STATEMENT OF DEUEL ROSS

    Mr. Ross. Thank you.
    Good morning, Chairwoman Fudge, Ranking Member Davis, and 
the Committee. My name is Deuel Ross. I am a senior counsel at 
the NAACP Legal Defense Fund, or LDF. Thank you for the 
opportunity to testify about voting rights in the United States 
today.
    Since its founding in 1940 by Thurgood Marshall, LDF has 
led the fight to protect and advance the voting rights for 
Black Americans and others. LDF's efforts, however, have gotten 
much more difficult since 2013 when the U.S. Supreme Court 
decided Shelby County v. Holder. LDF attorneys argued Shelby 
County in the Supreme Court in defense of Section 5 of the 
Voting Rights Act.
    As you know, Section 5 required covered States or 
jurisdictions with histories of discrimination to seek 
preclearance from the U.S. Department of Justice or a D.C. 
Federal court before implementing change related to voting. The 
States had the burden of proving that a change was 
nondiscriminatory. The Supreme Court, however, held that 
Congress had not sufficiently justified the coverage formula 
when it reauthorized the Voting Rights Act in 2006.
    By ending preclearance, however, the Supreme Court let 
States with a consistent record of voting discrimination act 
without any scrutiny. The results have been predictable and 
devastating. Within hours of the decision, Texas revived its 
previously blocked photo ID law. Within days, Alabama announced 
that it would enforce an unprecleared photo ID law. Within 
months, New York declined to hold elections to fill 12 
legislative vacancies, denying representation to 800,000 voters 
of color in New York City.
    Of course, LDF and others have continued to use the U.S. 
Constitution and Section 2 of the Voting Rights Act which apply 
nationwide to challenge discriminatory voting changes, but 
Section 2 in the Constitution placed the burden on voters to 
prove that the changes are discriminatory. For example, in 
2014, LDF won a case in which Fayette County, Georgia, tried to 
change its method of election from single-member districts to 
at-large voting after a black commissioner died and they needed 
to hold special elections. Section 2 was able to block that 
change.
    In 2018, LDF convinced the 11th Circuit to block the 
largely white city of Gardendale, Alabama's intentionally 
discriminatory attempt to secede from the more racially diverse 
Jefferson County School Board. The secession would have 
transferred black voters from the county board, in which those 
black voters had representation, to the Gardendale City Council 
in which Black voters had no representation.
    On the eve of the 2018 election, LDF represented black 
college students in Prairie View, Texas, a place with a long 
history of discrimination, where the county tried to cut on-
campus early voting. Counting officials responded to LDF's 
lawsuit by adding weekend and evening hours.
    In Florida, voting rights for people with felonies were 
restored in 2018 by a ballot referendum but later--earlier this 
year, excuse me, the Florida legislature responded by 
essentially imposing a poll tax requiring voters who have 
otherwise served their sentence to pay all fines and fees 
before they can register to vote.
    Last week, LDF, the ACLU, and others presented evidence at 
a hearing to try to stop this change before the 2019 elections. 
And in a pending challenge to Alabama's photo ID law, LDF has 
demonstrated that discrimination is not a thing of the past. A 
prominent State senator who supported the voter ID law for 10 
years stated that his purpose was to undermine the black power 
structure in Alabama, and other supporters have been caught on 
tape calling black voters aborigines and plotting their efforts 
to suppress the black vote. Black voters in Alabama were four 
times more likely to have their provisional ballots rejected 
because they lacked photo ID. All these changes would have been 
subjected to Section 5.
    LDF has also continued to use Section 2 of the Voting 
Rights Act to challenge at-large elections. For example, in 
2017, a Federal court ruled that Louisiana had intentionally 
discriminated when it maintained at-large elections in 
Terrebonne Parish, Louisiana.
    Unfortunately, this Voting Rights Act litigation, even when 
successful, is slow and can cost millions of dollars. On 
average, it takes 2 to 5 years for a Voting Rights Act case to 
be completed. For example, in Texas, in 2016, the 5th Circuit 
Court of Appeals found that Texas' photo ID law violated 
Section 2, but during the 3 years of litigation, hundreds of 
elected officials were voted into office, and for the 500,000 
voters who lacked ID, that win came too late.
    LDF has tried to work to address these discriminatory 
changes before they happen, but often, we have been stymied by 
the cost and time that it takes to litigate these matters.
    Given the myriad issues, Congress must act, first, through 
bills like the Voting Rights Advancement Act or the Voting 
Rights Amendment Act. Congress should restore preclearance. 
Congress should also strengthen Section 2 of the Voting Rights 
Act by making it easier for plaintiffs to block discriminatory 
voting changes before an election.
    As we prepare for the 2020 elections, we need to fix our 
democracy, and it should not be up for debate. It is critical 
that Congress make voting easier, not harder. It is time for 
bipartisan unity. It is time to act.
    Thank you.
    [The statement of Mr. Ross follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Fudge. Thank you.
    And I thank you all for your testimony.
    We will now begin questioning. Each member of the panel 
will have five minutes. I am going to kind of try to hold them 
to that if we can. We have a couple more panels.
    So I would now yield to Chairperson Lofgren for your five 
minutes. You are recognized for five minutes.
    The Chairperson. Well, thank you very much, Chairwoman 
Fudge.
    You know, when Chief Justice Roberts wrote the Shelby 
decision striking down the Voting Rights Act, he said--and this 
is a quote--``voting discrimination still exists, no one doubts 
that.'' So, clearly, the record is ample that discrimination 
continues to occur across the United States, and a compelling 
case has been made why we need to revitalize the Voting Rights 
Act. And I appreciate the testimony you have given today along 
those lines. That is a critical solution.
    Having said that, there are some States that were never 
covered under preclearance, some that bailed out. So I am 
wondering, in addition to the Voting Rights Act, which we are 
committed to, are there other changes or laws that the Congress 
should enact to alleviate the continued effects of racial 
discrimination?
    Ms. Clarke. Thank you for that question. I will observe 
that there are some States, like Tennessee and Kentucky, that 
just barely escape coverage under Section 5, where we are 
seeing extensive voter suppression efforts today. One stark 
example arises out of Tennessee, where after groups on the 
ground made extraordinary efforts to reach almost 90,000 not 
yet registered people, State lawmakers put a new law on the 
book that imposes draconian, burdensome, and costly 
requirements, including criminal penalties on groups that are 
working to register people to vote. No doubt this is a textbook 
example of voter suppression and the kind of tactic that would 
be blocked if we had a Section 5 review process that applied to 
the State of Tennessee.
    As Chairwoman Fudge indicated, we should follow the truth. 
And it is my firm belief that Congress should respond to the 
record that you amassed, indicating where the problems lie, and 
apply a remedy that is responsive to those issues.
    Mr. Ho. Chairperson Lofgren, I thank you for that question. 
There are elements of H.R. 1 that I think would be very 
positive in terms of protecting voting rights. And I just want 
to focus on one, that is the provision of H.R. 1 that provides 
for election day registration. About 20 States have election 
day registration, including the Ranking Member's home State of 
Illinois and your home State of California. The States that 
have election day registration tend to have turnout that is 
about 5 to 10 percentage points higher than the States that 
don't. It is the single reform that there is a--has the 
broadest consensus among political scientists that it 
facilitates participation, particularly among young people, 
mobile voters who have moved recently, African Americans, 
historically disadvantaged groups.
    We have heard a little bit about purges, erroneous removals 
of voters from the rolls. Election Day registration can be a 
valuable safety net in making sure that any voters who are 
purged erroneously do end up getting to participate on Election 
Day.
    The Chairperson. Thank you for that.
    I know my time is almost up, but it also helps if the 
Russians hijack the registration rolls. It is actually 
protection against that kind of cyber mischief, that with same-
day registration, we would prevent them from ruining our 
elections, but--the final comment.
    Mr. Ross. Thank you, Madam Chairperson. In addition to the 
other provisions of H.R. 1, LDF supports early voting in 
Federal elections. Obviously, it offers the opportunity to cut 
down on some of the election administration issues that we have 
seen, like long lines, voters having to wait three or four 
hours in order to vote. If voters have multiple days on which 
to vote and ample opportunity to do so, then those kinds of 
issues will be cut down.
    I also wanted to briefly comment on a State that was not 
covered by Section 5, which is Arkansas which is the ACLU and 
LDF and others were involved in litigation there to challenge a 
photo ID law, which was successful initially, only for the 
State to turn around and pass a new photo ID law shortly 
thereafter. LDF is currently in court now challenging the way 
in which the Court of Appeals of Arkansas and the Arkansas 
Supreme Court are elected, and the function is that the Court 
of Appeals in particular is elected in such a way that keeps 
black voters from having an opportunity to elect a candidate of 
their choice.
    The Chairperson. Thank you very much. I see my time has 
expired, Madam Chairwoman.
    Chairwoman Fudge. Thank you very much.
    Ranking Member Davis, you are recognized for five minutes.
    Mr. Davis of Illinois. Thank you, Madam Chairwoman. And 
thanks again to our witnesses. I appreciate the opportunity and 
I appreciated your testimony.
    I will start with you, Mr. Ho. Do you agree that accurate 
voter rolls are a critical part of our election administration 
and required by the NVRA?
    Mr. Ho. Of course, I do. And part of maintaining accurate 
rolls, I think, is making sure that voters are not purged 
inaccurately.
    Mr. Davis of Illinois. What are the best practices, then, 
for maintaining timely voter roll hygiene?
    Mr. Ho. Well, I think about 19 States in recent years have 
adopted a form of automatic voter registration, which ensures 
that when voters move, for example, their registrations are 
automatically updated with the State. It is a way, I think, of 
both facilitating participation and also making sure that there 
isn't so-called dead wood on the rolls of voters who have moved 
but their registration information remains out of date.
    Mr. Davis of Illinois. So give me an example of a couple of 
States that have done that and that you support. So you are 
saying once they move, it is automatically updated, and you are 
fine with that, versus other practices that exist in States 
like Ohio, for example, where we did one of our hearings?
    Mr. Ho. Yes. I think it is much better when a voter updates 
their information with the State, whether it is with the DMV or 
a social service agency or something like that, to 
automatically update their registration in accordance with that 
address change, rather than relying on a kind of archaic system 
of sending the voter a card and asking them to write their new 
information on it, or treating the failure to return a piece of 
what looks like junk mail to a lot of people, as evidence of 
the fact that they have moved or are no longer eligible.
    So I think I mentioned, I believe, 19 States have adopted 
some form of automatic registration. This includes States like 
Oregon, Alaska--I don't have the complete list, but the 
National Conference of State Legislatures maintains a very 
comprehensive and up-to-date list of practices like that.
    Mr. Davis of Illinois. Okay. What has the ACLU's 
interaction with the Election Assistance Commission been in 
trying to address the ballot access concerns that you raise in 
your testimony?
    Mr. Ho. In my role at the ACLU, my primary job is to 
oversee our litigation. So I don't have, myself, direct contact 
with the EAC.
    Mr. Davis of Illinois. You haven't sued the EAC?
    Mr. Ho. I am sorry?
    Mr. Davis of Illinois. You have not filed a lawsuit against 
the EAC, right?
    Mr. Ho. Well, I was about to say, my one interaction has 
been litigation against the EAC over--and I detail this in my 
written testimony--over a unilateral, and what the D.C. circuit 
found, unlawful move by former executive director Brian Newby 
to add documentary proof of citizenship instructions to the 
Federal voter registration form.
    Mr. Davis of Illinois. So you are not aware of any ACLU 
interaction to try and work with EAC to ensure that we address 
some of your concerns?
    Mr. Ho. I am not, but I think the appropriate person in my 
office to talk to would be a member of our Washington 
legislative office, and I am happy to follow up with them to 
see----
    Mr. Davis of Illinois. Please do. Please do.
    Mr. Ho [continuing]. What contacts there have been.
    Mr. Davis of Illinois. I appreciate it.
    Ms. Clarke, you mentioned long lines at polling places, 
ineffective language assistance, and faulty technology as types 
of current voter suppression. In your opinion, can we leverage 
21st century technology to address these concerns?
    Ms. Clarke. We absolutely can. And I do think that better 
machines that are not hackable, that provide a paper trail, 
audit system, so that we can ensure public confidence to voters 
when they cast their ballots, that the ballot is indeed being 
handled and the vote is being cast for the person that they 
wanted is incredibly important.
    Georgia is probably exhibit A when it comes to the work 
that must be done to update our voting machines and voting 
technology. In a lawsuit that we brought with the Coalition for 
Good Governance, we got a Federal court to, for the very first 
time in our country's history, overturn and reject the entire 
State system. Georgia is working right now to put in place new 
machines, new technology, and we do think that this will 
produce better outcomes for voters in the State of Georgia 
going forward.
    Mr. Davis of Illinois. Great.
    Mr. Ross, it was great talking with you before the hearing. 
I am proud to represent what many consider to be the birthplace 
of the NAACP in Springfield, Illinois. We have got great 
opportunities to highlight some of the artifacts from the 1908 
race riots that are being uncovered, and the archaeology is 
happening right now. So I look forward to working with the 
NAACP in the future to get those on display. It is an important 
message to send in the land of Lincoln.
    But one of the areas under the Committee's jurisdiction 
that most concerns me is the ability of those with disabilities 
to vote. With your experience in the election arena, what can 
we do as Congress to help facilitate a better voting experience 
for the disabled?
    Mr. Ross. So I will say that, you know, LDF's work is not 
primarily in the disability rights arena, but we have done--we 
have a Prepared to Vote program, which is focused on election 
day assistance for voters, and one of the things that we often 
see are issues like access to the polls for handicapped voters 
or issues with access for voters who may be undereducated or 
have disabilities like blindness and things like that.
    And so I think one of the things that Congress can and 
should do is to offer more funding for local jurisdictions, for 
updated voting machines, for training of poll workers so that 
they can address these kinds of access issues, and, you know, 
allow for people who want to vote to be able to do so.
    Mr. Davis of Illinois. Great. Thank you.
    I yield back.
    Chairwoman Fudge. Thank you.
    Mr. Aguilar, you are recognized for 5 minutes.
    Mr. Aguilar. Thank you, Madam Chairwoman. I appreciate the 
panel and their testimony.
    Ms. Clarke, I will start with you. In your testimony, I 
want to make sure I understood this, how many Section 2 
lawsuits has the current administration filed?
    Ms. Clarke. Zero.
    Mr. Aguilar. We have been in a couple of these hearings 
around the country, and our colleague, Mr. Butterfield, always 
does a very good job, and since he is not here, I will ask his 
question. How much does a Section 2 lawsuit typically cost, and 
what are the resources? And if you could chime in here too 
afterwards, Mr. Ross, what are the resources that go into 
filing a Section 2 lawsuit?
    Ms. Clarke. Thank you for that question. These lawsuits can 
run in the ballpark of hundreds of thousands of dollars. 
Studies have shown that voting rights cases are among the most 
complex cases that are heard by Federal courts. Often, these 
cases require that civil rights groups, like ours, retain 
experts to conduct extensive demographic analyses, produce 
maps, and so forth. This is not a sustainable way to deal with 
the crisis of voter suppression and widespread rampant voting 
discrimination that we face in our country. These cases are not 
just costly, but they are long and protracted and can take 
several years to bring to final resolution, meaning that voters 
on the ground are literally experiencing and living the effects 
of having a discriminatory law or practice on the books in 
their community each and every single day.
    I started off my career in the Justice Department enforcing 
the Voting Rights Act. Section 5 was a part of that work. It is 
a preemptive strike to discrimination. It means that officials 
in Texas and Georgia and all the places that we have been 
talking about today would never have been allowed to put these 
discriminatory tactics on the books if we had Section 5 in 
place.
    I think the work that this Committee is doing is critical 
to the fate of American democracy, and I hope that it yields to 
a place where we can have Section 5 restored and its 
prophylactic protections back on the books.
    Mr. Aguilar. Mr. Ross.
    Mr. Ross. Sure. So just to follow up on what Ms. Clarke 
said, is that one of the things that have been found is that 
voting rights cases take up the sixth most judicial resources 
in terms of cases. So it is not only money and time of the 
parties who are litigating it, but also the Federal courts. One 
of the reports that I cite too in my written testimony that LDF 
created shows, not only the cost for the plaintiffs, but also 
the cost for these jurisdictions to litigate Section 2 cases 
and then lose them. This is a cost to taxpayers, to both black 
and white voters for these discriminatory changes and 
jurisdictions being, for lack of a better word, hard-headed in 
not recognizing that they have violated Federal law.
    Also, it will take, as I said in my testimony, somewhere 
between 3 and 5 years for these litigations to obviously be 
resolved. And for States like Alabama and Texas and other 
places that enact discriminatory photo ID laws or other 
barriers that affect hundreds of thousands of voters, these 
people have to wait years and years for any kind of relief to 
finally happen. And it is important that we think about the 
costs of not having Section 5, of not having an administrative 
process that is less costly, less burdensome, and protects 
voters beforehand.
    Mr. Aguilar. Mr. Ho, if you want to respond to that, I will 
let you, but I did want to ask you if the loss of proactive 
Federal protections has made it more difficult to track changes 
to voting laws that could have a discriminatory impact and so--
and how we categorize and track them in the future. But if you 
also want to chime in on the cost for Section 2.
    Mr. Ho. Sure. Thank you for those questions. Section 2 
cases are quite expensive. I detailed in written testimony to 
the Judiciary Committee earlier this year one case in North 
Carolina which cost, I think, around $5 million to litigate 
over a 3-year period. That testimony also described 10 ACLU 
Section 2 cases, which were ultimately successful in the sense 
that we either got a ruling in our favor or a settlement for 
our clients. While those cases were pending, a total of 350 
local, State, and Federal officials were elected under laws 
that were later determined to be discriminatory. So we have 
lost a lot without the preclearance regime in place.
    I think about half of successful Section 2 cases 
nationally, since Shelby County, were brought at the local 
level, were changes to voting laws are much more difficult to 
keep track of and I think underscores precisely what we have 
lost.
    Mr. Aguilar. Thank you so much.
    Thank you, Madam Chairwoman.
    Chairwoman Fudge. Thank you.
    Let me just wrap up. I am from Ohio which I do believe 
should be a preclearance State. For the last four--or five 
elections actually, the rules have changed every single 
election, either the number of days that are allowed for early 
vote, what you need to bring to vote.
    I live in a county of more than a million people. We have 
one early voting site. One. So the State would say that we want 
uniformity, we want all 88 counties to be exactly the same. But 
we have counties that have 5,000 people and we have counties 
that have over a million people. Uniformity is not really 
fairness or equity. So I think Ohio should be in that number.
    I also think that as we sit here as members, we have to 
have a desire to do the right thing. In Ohio, for the first 
time, we have been able to work with our secretary of state, 
who, by the way, is a Republican, because he believes that 
everyone should have the right to vote. And so instead of 
purging 230,000 people, which is what he thought he was 
required to do, he decided we are going to cross-check with the 
DMV. We are going to let the League of Women Voters look at the 
list. We are going to let the NAACP look at the list. Within 
weeks, automatically, 40,000 had been removed from that number, 
and the number continues to grow. So it can be done if we want 
to do the right thing.
    And I would just ask my colleagues that the next time we 
open up a Congress and we start to read the Constitution, let's 
just be clear that that is something that we want to follow. 
When we disenfranchise people who have paid their debt to 
society, we have violated the Constitution. It says every 
citizen, every American. We don't take away a citizenship when 
we incarcerate you, and especially when you have paid your 
debt.
    So I want to thank you all for the work that you do. We 
need more people doing this kind of work and raising awareness 
of what is happening in our communities, because there are many 
people, like some of my colleagues, who do not believe that 
anything is wrong with our system, that believe it is okay to 
have these strict voter ID laws. And I would suggest to them 
when they come up with examples like, well, you know, you have 
to have a certain ID to get on a plane or you have to have one 
to get a movie, those are not rights. Voting is a right. And so 
we need to be encouraging people to vote and not trying to 
discourage them.
    So I thank you so much for your testimony today, and I just 
appreciate your being here. Thank you so much.
    And we would--our next panel, we are going to call our next 
panel. Thank you very, very much.
    Chairwoman Fudge. Thank you very much. We have a lot going 
on this morning, so people are all over the place. The Ranking 
Member has an Agriculture hearing. The Chairperson has a 
Science hearing. I am actually supposed to be in another one as 
well. So people will come and go. So forgive us for that.
    Welcome.
    For our second panel, we have--Catherine Lhamon is the 
Chair of the U.S. Commission on Civil Rights. President Obama 
appointed Ms. Lhamon to a 6-year term on the Commission on 
December 15, 2016, and the Commission unanimously confirmed the 
President's designation of Ms. Lhamon to chair the Commission 
on December 28, 2016.
    Ms. Lhamon also serves in the cabinet of California 
Governor Gavin Newsom, where she has been Legal Affairs 
Secretary since January 2019, and has served as an Assistant 
Secretary for Civil Rights at the U.S. Department of Education 
until 2017.
    Welcome.
    Michael Waldman is President of the Brennan Center for 
Justice at the NYU School of Law, a nonpartisan law and policy 
institute that focuses on improving systems of democracy and 
justice. The Brennan Center is a leading national voice on 
voting rights, money in politics, criminal justice reform, and 
constitutional law.
    Mr. Waldman, a constitutional lawyer and writer, who is an 
expert on the Presidency and American democracy, has led the 
Center since 2005. Mr. Waldman was Director of Speechwriting 
for President Bill Clinton from 1995 through 1999, serving as 
an Assistant to the President.
    Welcome, sir.
    Brenda Wright is the Senior Advisor for the Legal 
Strategies at Demos. Ms. Wright has led many progressive legal 
and policy initiatives on voting rights, campaign finance 
reform, redistricting, election administration, and other 
democracy and electoral reform issues and is a nationally known 
expert in these areas. Ms. Wright has argued two cases before 
the Supreme Court on campaign finance and voting rights and has 
written extensively on democracy and voting rights issues.
    Welcome.
    Elena Nunez serves as Director of State Operations and 
Ballot Measure Strategies at Common Cause. Ms. Nunez joined 
Common Cause in 2006, managing a successful drive to win voter 
approval for the State's ethics law which limits the influence 
of lobbying money in State politics. She previously was 
campaign manager for Amendment 27, Common Cause's successful 
2002 statewide campaign finance reform initiative.
    I thank you all.
    And the same will apply. You will all be recognized for 5 
minutes. The light will turn green when you begin. It will turn 
yellow whether you have 1 minute left and red when it is time 
for you to wrap up.
    You are recognized for 5 minutes.

 STATEMENTS OF THE HONORABLE CATHERINE E. LHAMON, CHAIR, U.S. 
 COMMISSION ON CIVIL RIGHTS; BRENDA WRIGHT, SENIOR ADVISOR FOR 
 LEGAL STRATEGIES, DEMOS; MICHAEL WALDMAN, PRESIDENT, BRENNAN 
    CENTER FOR JUSTICE; AND ELENA NUNEZ, DIRECTOR OF STATE 
     OPERATIONS AND BALLOT MEASURE STRATEGIES, COMMON CAUSE

         STATEMENT OF THE HONORABLE CATHERINE E. LHAMON

    Ms. Lhamon. Thank you.
    Chairwoman Fudge, Ranking Member Davis, members, thank you 
very much for inviting me to testify this morning.
    I chair the United States Commission on Civil Rights, and I 
come before you today to speak about the Commission's current 
work evaluating voter access and voting rights, as described in 
our report, released in September 2018, titled ``An Assessment 
of Minority Voting Rights Access in the United States.''
    Drawing from Commission research and investigations and 
memoranda from 13 of the Commission's State advisory committees 
who analyzed voting discrimination in Alabama, Alaska, Arizona, 
California, Illinois, Indiana, Kansas, Louisiana, Maine, New 
Hampshire, Ohio, Rhode Island, and Texas, this report documents 
current conditions evidencing ongoing discrimination in voting. 
On every measure the Commission evaluated, the information the 
Commission received underscores that discrimination in voting 
persists.
    Our report found that, at the time we issued the report, at 
least 23 States have enacted newly restrictive statewide voter 
laws since the Shelby County decision in 2013. These statewide 
voter laws range from strict voter identification laws, to 
voter registration barriers such as requiring documentary proof 
of citizenship, allowing challenges of voters on the rolls, and 
unfairly purging voters from rolls, to cuts to early voting, to 
moving or eliminating polling places.
    The conclusions the report draws are bleak, leading to 
unanimous Commission findings that, for example, during the 
time period studied, race discrimination in voting endures 
today. Likewise, voter access issues and discrimination 
continue today for voters with disabilities and limited English 
proficient voters.
    Following the Supreme Court's decision in Shelby County, in 
the absence of the preclearance provisions of Section 5 of the 
Voting Rights Act, voters in jurisdictions with long histories 
of voting discrimination have faced discriminatory voting 
measures that could not be stopped prior to elections because 
of the cost, complexity, and time limitations of the remaining 
statutory tools.
    As a result, the Commission recommends that Congress should 
amend the Voting Rights Act to restore and/or expand 
protections against voting discrimination that are more 
streamlined and efficient than existing provisions of the act.
    This new coverage provision should take into account the 
reality that, one, voting discrimination tends recur in certain 
parts of the country; and, two, voting discrimination may arise 
in jurisdictions that do not have extensive histories of 
discrimination.
    Because this committee has visited and heard testimony from 
voters and experts in several States, I will focus my attention 
on issues of voter access that the Commission and our advisory 
committees found in other States. Here are just some examples 
of what voters experienced, raising concerns of discrimination 
based on race and disability status.
    With respect to strict voter identification laws, in 
Kansas, our advisory committee received testimony from a Native 
American voter who reported being denied the right to use her 
Tribal ID as acceptable identification when voting, even though 
Tribal ID is acceptable under State law. She testified she was 
so flustered when she was denied that right that she did not 
ask for a provisional ballot and she did not vote that day.
    With respect to inappropriate purging, our Indiana advisory 
committee found, quote, certain racial and ethic minorities may 
be disproportionately susceptible to a false hit in Crosscheck, 
which is a program widely used to identify voters who may be 
registered in more than one State.
    With respect to scarce and difficult-to-access polling 
places, our Louisiana advisory committee received testimony 
that demonstrated that the racial makeup of an area is a 
predictor of the number of polling locations in that area and 
that there are fewer polling locations per voter in a 
geographical area if it has more black residents.
    In one notable instance in Alaska, a polling place was 
moved away from a village, and, thereafter, Native Alaskan 
voters could only access their polling place by plane.
    With respect to inaccessible polling locations for voters 
with disabilities, in New Hampshire, 100 percent of voters with 
disabilities were unable to vote privately and independently in 
municipal elections in 2013 because none of the polling places 
had set up an accessible voting system.
    With respect to voter intimidation, in Illinois, a county 
clerk reported that in Cicero, Illinois, police officers have 
harassed voters and asked people for voting permits, which 
don't exist, and testified that between 60 and 70 off-duty 
Chicago police officers were armed and present at the polls, 
intimidating Cicero residents, who were predominantly Latino, 
and it took the county clerk's office between four and five 
hours to clear the police officers from the polling place.
    These distressing data and information regarding ongoing 
voter discrimination form a basis for our call to Congress to 
improve our voting protections to ensure that ours is a real 
democracy.
    On this difficult day of Congressman Elijah Cummings' 
passing, I want to close by reminding us all of what he has 
said about voting. Quote, ``On my mother's dying bed, 92 years 
old, former sharecropper, her last words were, `Do not let them 
take our votes away from us.' She had fought and seen people 
harmed, beaten, trying to vote. Talk about inalienable rights. 
Voting is crucial. And I don't give a damn how you look at it; 
there are efforts to stop people from voting. That is not 
right. This is not Russia. This is the United States of 
America.''
    Rest in peace, Congressman Cummings.
    [The statement of Ms. Lhamon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Fudge. Thank you very much.
    Ms. Wright, you are recognized for 5 minutes.

                   STATEMENT OF BRENDA WRIGHT

    Ms. Wright. Thank you, Chairwoman Fudge and Ranking Member 
Davis, for the opportunity to testify today.
    It is a privilege to be testifying before this Subcommittee 
at a time when it is doing such important work at this critical 
moment in our democracy. And I believe it is fitting in these 
times to start out with a big-picture reflection on the history 
of the right to vote in America because of the light it sheds 
on what is needed to make that right real today, given the 
threats it is facing today.
    One starting point to notice is that, when people recount 
the story of the evolution of the right to vote in the United 
States, you often hear a narrative of how it has enjoyed 
basically just a steady expansion, from exclusion to inclusion, 
since our Nation's founding.
    So the narrative starts with how the right to vote 
initially was reserved only to white men who owned property, 
and then it went on to include formerly enslaved men through 
the 15th Amendment; then the 19th Amendment that gave women the 
right to vote; then the Voting Rights Act that gave crucial 
protections against racial discrimination; then 18-year-olds 
through the 26th Amendment, et cetera. And so the narrative 
that you hear suggests that we have finally reached the point 
where everyone can register and vote.
    Now, all of those advances have been critically important, 
and I am not dismissive of them at all, but I think that the 
work that this committee has done over the past many months 
shows us that that is not a correct picture of our history.
    Instead, as many advocates and historians have lifted up, 
the right to vote in America has always been contested. It has 
achieved gains, and it has suffered setbacks. Progress has been 
met with pushback. And each generation has had to fight and 
struggle to achieve or expand or defend the right to vote. Each 
generation has had to do that in its own way and under its own 
circumstances.
    Now, that leads us to today. As we have already heard 
through the witnesses today and as you have heard in your 
previous hearings, the right to vote today is under attack, and 
it is under attack in numerous ways.
    And to avoid repeating what has already been said, I would 
like to focus on an issue of enforcement of an existing law 
that we do have which has been seriously neglected by the 
current Department of Justice, and that is the National Voter 
Registration Act of 1993.
    That Act requires States to provide voter registration 
through public assistance agencies when people are applying for 
benefits, and it requires States to provide voter registration 
when people engage in driver's license transactions.
    Demos has spent a number of years now investigating the 
extent to which States are complying with those laws, and we 
have found in State after State that, through neglect, through 
bad administration, those opportunities for voter registration 
have often been neglected.
    We have worked in over 20 States, and they are red States 
and blue States. It is not just concentrated in one region of 
the country. One of our first cases was in Ohio. And we have 
worked, over the years, both cooperatively with States and in 
litigating against them, to raise up the level of compliance 
with those very important voter registration opportunities.
    One of the things that really concerns us is that, under 
the current Department of Justice, there have been no 
enforcement actions to enforce either Section 5 or Section 7 of 
the National Voter Registration Act. And that is a big problem. 
We can't cover the entire country on our own.
    I want to also focus on one group of U.S. citizens that 
remains formally locked out of the vote at some point in their 
lives across almost the entire United States, and that is 
people with felony convictions. This is a stain on our 
democracy, and it formally disenfranchises more than 5 million 
Americans who are denied the right to vote because of criminal 
convictions.
    And because our criminal legal system disproportionately 
targets, arrests, sentences, and locks up people of color, 
communities of color are represented among disenfranchised 
Americans far beyond their representation in the population. 
For example, a national survey on drug use reported that 
African-Americans and whites use drugs at similar rates but the 
imprisonment rate of African-Americans for drug charges is 
almost six times that of whites.
    So to achieve the goal of a full enfranchisement that is 
central to democracy, we must reform our current laws that 
disenfranchise persons with felony convictions. Such laws are 
not required by the U.S. Constitution, and they have not been 
the law forever. In fact, in Maine and Vermont and in many 
other countries, including most of Europe, all people who are 
incarcerated can vote. There is simply nothing inevitable about 
vote stripping.
    And, certainly, the practice in some States of permanently 
disenfranchising people even years after they have completed 
their sentences is indefensible.
    I want to just touch on one other issue in the time 
remaining, because the issue of criminal disenfranchisement is 
compounded by the practice of prison-based gerrymandering. 
Prison-based gerrymandering happens because the United States 
Census counts incarcerated persons as residents of the prison 
where they are incarcerated rather than as residents of their 
home community. And because prisons are often located far away 
from the home community of incarcerated persons, counting them 
in that manner awards disproportionate representation to rural 
or semi-rural communities containing prisons at the expense of 
representation for the home communities of incarcerated 
persons.
    Chairwoman Fudge. Thank----
    Ms. Wright. Thank you. Sorry to go over my time just a 
little bit.
    Chairwoman Fudge. Thank you very much.
    Ms. Wright. Thank you for allowing me to testify here.
    [The statement of Ms. Wright follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    
    Chairwoman Fudge. Mr. Waldman, you are recognized for five 
minutes.

                  STATEMENT OF MICHAEL WALDMAN

    Mr. Waldman. Thank you, Madam Chairwoman and Members of the 
Subcommittee, for this important hearing--for this important 
series of hearings.
    The thing we all share, the premise we all share, is that 
the vote is the heart of American democracy. In so many ways, 
the right to vote is sacred. And, as we know, we have had to 
fight for this right for over two centuries--to expand it, to 
make it real, to ensure that it is something that all Americans 
can truly share.
    We are now one year out from this very pivotal election, 
and it is plain that the systems of democracy and our electoral 
system is under tremendous stress at this moment. As has been 
described, 25 States in the last decade have enacted new laws 
to make it harder to vote, for the first time since the Jim 
Crow era. And those laws have hit hardest communities of color, 
young people, old people, poor people. Voter suppression 
unfortunately remains real and remains a real threat to our 
ideals.
    And so the question for all of us and for this committee 
and this Congress is: What can we do to ensure that the 2020 
election will be free and fair and secure? And, going forward, 
what can we do to modernize and improve our election systems so 
they truly represent all Americans?
    Our belief, strongly, is that the best way to respond to 
attacks on democracy is to strengthen democracy. As we have 
looked--and I describe this in our testimony from the Brennan 
Center for Justice--as we have looked at the landscape of the 
current election, I want to identify three particular 
challenges, three particular threats, among many, to be 
concerned about.
    The first is the prospect of abusive voter purges. And we 
have heard some things about that today. We all care about 
having accurate and complete voter rolls. Seventeen million 
people were removed from the voter rolls over the last two-year 
period we studied. And the rate of purging was far higher in 
the States that had previously been covered by Section 5 of the 
Voting Rights Act than in the rest of the country. And that has 
remained true over two election cycles. That is a concerning 
and a, frankly, suspicious fact that should make us be 
troubled, that these removals are not merely hygiene but 
something more pernicious than that.
    The second concern that we have relates to election 
security, something that Members of Congress of both parties 
have worked on this year. We all know that in 2016 Russia 
attacked our democracy. As Director Coats testified, the lights 
are blinking red for not only Russia but other potential 
hostile actors trying to take advantage of the holes and risks 
in our system.
    There has been progress. In 2016, 20 percent of people 
voted on machines without paper backup records. By 2020, there 
is a good chance that, in at least the hotly contested States 
in the Presidential election, that number could be down to 
zero. But more must be done.
    And the third considerable threat that I want to point to 
is, following on what my colleague has said, the denial of the 
right to vote to many, many people, especially in the State of 
Florida, who have had their right to vote restored by Amendment 
4 to the Florida Constitution, which passed in a strong 
bipartisan vote, with 64 percent of the vote, and which now is 
being, we would argue, gutted--attempting to be gutted by the 
Florida legislature. And there is litigation to redress that 
that we are part of.
    Going forward, what reforms would make a big difference? 
Well, first of all, we agree that it is vital to restore, 
reauthorize, and modernize the Voting Rights Act so that it can 
fully and once again protect the voting rights of all Americans 
and those who face racial discrimination.
    Second, we strongly support H.R. 1, which we believe is the 
most significant and sweeping democracy reform legislation 
since 1965. That would include automatic voter registration, 
which has been described as a transformative reform that would 
add tens of millions to the rolls and make lists more accurate 
and secure.
    And, finally, election security. We applaud the House of 
Representatives for its recent move to authorize $600 million 
to help States meet this threat. We are encouraged that the 
Senate seems to be coming along, at a lower level. We encourage 
the House to stand firm in conference and in negotiations both 
at the proper amount of funding but also to make sure that the 
money is actually used for the purpose it is designed for.
    The bottom line on all of this is, the public really cares 
about this. There is a great hunger for this. In the 2014 
election, it was the lowest voter turnout in 72 years; and in 
the last midterm election, last year, it was the highest voter 
turnout since 1914. Ballot measures passed all over the country 
for democracy reform. It is a democracy movement from all over 
the country, all political views. The people are out there. And 
we encourage Congress to continue to play your role in making 
this a reality for our country.
    Thank you.
    [The statement of Mr. Waldman follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
    Chairwoman Fudge. Thank you.
    Ms. Nunez, you are recognized for 5 minutes.

                    STATEMENT OF ELENA NUNEZ

    Ms. Nunez. Thank you, Chairwoman Fudge, for inviting me to 
testify before the House Administration Committee Elections 
Subcommittee today. And thank you to Chairwoman Fudge, Ranking 
Member Davis, and all Members of the Subcommittee for holding 
this critically important hearing.
    My name is Elena Nunez, and I am the Director of State 
Operations and Ballot Measure Strategies for Common Cause. We 
are a national, nonpartisan watchdog organization with 1.2 
million supporters and 30 State organizations throughout the 
country.
    For nearly 50 years, Common Cause has been holding power 
accountable through lobbying, litigation, and grassroots 
organizing. We fight to reduce the influence of big money in 
politics, enhance voting rights for all eligible Americans, 
strengthen ethics laws to make government more responsive, and 
stop gerrymandering.
    We were founded by Republican John Gardner at a time when 
Republicans and Democrats came together to work on the pressing 
issues of the day. During the 1970s, Common Cause worked with 
many Members of Congress, Democrats and Republicans alike, to 
help pass major democracy reforms that sought to correct some 
of most egregious abuses of power, including the Federal 
Election Campaign Act and the Ethics in Government Act.
    Similarly, each of the five times the Voting Rights Act has 
been reauthorized, it had strong bipartisan support before 
being signed into law by a Republican President.
    However, as you have heard from many of the witnesses 
today, in the aftermath of the Supreme Court's Shelby County 
decision, voting rights have become an increasingly politicized 
issue.
    You have heard about many of the attacks on the right to 
vote through voter purges, polling place closures, and 
restrictive forms of voter ID, so I am going to focus my 
testimony on some of the more subtle forms of voter suppression 
that can keep people from being able to participate.
    One tactic that we are seeing in increasing numbers is the 
placement of polling sites at police stations or having a law 
enforcement presence at other polling sites, which can have a 
chilling impact on voters.
    In 2016, Macon, Georgia, election officials tried to move a 
voting precinct to a police station in a largely African-
American community. And throughout the country, in advance of 
the 2016 and 2018 elections, rumors circulated online and via 
fliers that Immigration and Customs Enforcement would be 
patrolling voting locations.
    We are also seeing a growing trend of voter suppression 
through misinformation. Voters may be given misinformation 
about registration requirements, polling locations, or ballot 
deadlines. In 2016, automated social media accounts, likely 
connected to the Internet Research Agency, some of which were 
targeting African-American and Latino voters, falsely claimed 
that voters could vote from home for Hillary Clinton.
    Increasingly, election administration practices around 
signature processes are a growing concern for voter 
suppression. Signature mismatch laws can significantly affect 
voters with disabilities, women who get married or divorced, 
seniors, and people for whom English is a second language, 
among others.
    The often arbitrary application of the law can lead to bias 
by election officials, nearly all of whom are not handwriting 
experts, because in most cases there are not uniform standards, 
and all too often there are not adequate provisions to cure a 
signature if there is a question.
    In Florida in 2018, most of the roughly 10,000 votes not 
counted because of voter error were thrown out because of 
signature mismatches. One study found that young voters and 
voters of color were more likely to have their ballots rejected 
and they were less likely to cure those problems.
    We believe that voters are best able to participate when 
they have convenient options to cast their ballots. Efforts to 
reduce options, namely by reducing opportunities for early 
voting, is another form of suppression that we have seen in 
North Carolina, Ohio, and Wisconsin, among other States.
    In North Carolina in 2013, the legislature cut a week of 
early voting, a move that was eventually overturned by a court 
because the change targeted African-Americans with ``surgical 
precision.''
    In addition to reducing the number of days of early voting, 
we are seeing a trend towards eliminating or reducing options 
during evenings and weekends, times that are often most 
convenient for working people. These changes have a 
disproportionately discriminatory impact, as African-American 
voters tend to use early voting more than white voters do.
    While long lines are often viewed as a sign of high voter 
interest, there can also be an indication of voter suppression 
when the lines are an inevitable result of poor planning or 
inadequate resources. Machine failures due to aging voting 
equipment and delays in checking in voters due to poor voter 
rolls can create backups that have a ripple effect.
    The U.S. has not made election day a national holiday or 
mandated paid time off to work, so many eligible voters cannot 
take unpaid leave to wait in line for multiple hours to cast a 
ballot. Vote suppressors, recognizing this dynamic, can starve 
localities for resources so that the actual in-person voting 
process takes longer than Americans are able to spend.
    Our goal should be a system where all eligible voters can 
cast ballots without barriers and have confidence that their 
votes are counted accurately. Many States, through litigation, 
ballot measures, and State legislative efforts, are fighting 
voter suppression and expanding voter access.
    To make sure that voters throughout the country can have 
quality access, Federal action is needed by adopting the For 
the People Act, H.R. 1; the SHIELD Act, including the Deceptive 
Practices and Voter Intimidation Prevention Act; and the Voting 
Rights Advancement Act.
    Thank you again for the opportunity to testify today, and I 
look forward to answering your questions.
    [The statement of Ms. Nunez follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
     
    Chairwoman Fudge. Thank you very much.
    Thank you all.
    We will now the begin with our questioning, and I will 
recognize Mr. Aguilar for five minutes.
    Mr. Aguilar. Thank you, Madam Chairwoman.
    Ms. Lhamon, I will start with you, but, also, as the 
Californian up here, thank you for your service.
    Ms. Lhamon. Thank you.
    Mr. Aguilar. The Legal Affairs Secretary is no small 
position in California. So I will be sure to talk to you about 
San Bernardino County and any judicial vacancies in another 
platform.
    Ms. Lhamon. I look forward to that conversation.
    Mr. Aguilar. You know, but this is for the entire panel. In 
this chamber, even just yesterday, the Ranking Member talked 
extensively about ballot harvesting.
    And so, Ms. Lhamon, can you talk a little bit about what 
the California experience has taught us, the barriers that 
individuals have, you know, specifically the kind of robust 
vote-by-mail system that we see?
    But this is becoming hyper-political. And some of my 
colleagues across the aisle are conflating voter fraud with 
legitimate exercising of our electoral process. And they have 
blamed losses, congressional losses, on this, basically telling 
folks that thousands of ballots just kind of show up, the 
inference being that individuals are just grabbing other 
people's ballots. It is just becoming hyper-political.
    So can you talk a little bit about ballot harvesting? And 
is there evidence? Was there any testimony given to you and 
your Commission supporting claims of widespread voter fraud 
that a lot of my colleagues have used, obviously, to pass 
increased voter suppression laws?
    Ms. Lhamon. Not only was there no evidence given to the 
Commission about widespread voter fraud, the data and the 
research that is bipartisan reflect that voter fraud is 
vanishingly rare in this country.
    So the concerns about that type of vote misuse both have 
existing criminal penalties in the Voting Rights Act for voting 
twice and State and Federal penalties for the kinds of voter 
fraud that already exist. And so it is duplicative and also 
harmful to initiate strict voter ID, among other kinds of 
requirements, in the name of combating voter fraud.
    But, also, the existence of voter fraud, as I mentioned, 
essentially does not exist. And the testimony, both that we at 
the Commission received and also that our State advisory 
committees received across the many States that investigated 
this question, just don't find the existence of voter fraud at 
all.
    And that extends, as I mentioned, from bipartisan research. 
So The Heritage Foundation, the Republican National Committee, 
a number of conservative-leaning as well as nonpartisan 
organizations have researched this question and consistently 
and persistently find that voter fraud essentially does not 
exist in this country.
    Mr. Aguilar. Any others on the panel?
    Ms. Nunez, then Mr. Waldman.
    Ms. Nunez. Thank you.
    I think one thing that is important to keep in mind when we 
talk about ballot harvesting, as it is known, is that the 
system works when we give voters options to cast ballots, and 
that also means giving them options on how they return them.
    So I think, in terms of past practices, you want to give 
voters multiple options. And for some voters, that may be 
giving their ballot to another person.
    I think, specifically, though, there is some good input 
from the Native American Rights Fund, specifically, about how, 
for Native voters, being able to have someone else return their 
ballot for them is critically important. And there is a whole 
set of factors as to why that is the case, having to do with 
the distance from polling locations for voters who are living 
on a Native reservation.
    But the upshot is that if we don't allow voters to choose 
how to return their ballots, we are not giving them the 
opportunity to take advantage of that expanded access that can 
come through a mail ballot or absentee ballot system.
    Mr. Aguilar. And as this panel heard testimony in Arizona, 
the definition of family in Native American culture might be 
very different----
    Ms. Nunez. Precisely.
    Mr. Aguilar [continuing]. Than we might know.
    Mr. Waldman.
    Mr. Waldman. First, in terms of the broad claim, the 
illusory claim, of widespread voter fraud, the Brennan Center's 
research has shown that, in terms of in-person voter 
impersonation, you are more likely to be struck by lightning 
than to commit voter fraud in the United States. And that is 
just an established fact.
    The real issue here is we want to make it easier for people 
to vote. About one out of three Americans now votes before 
election day. This is, in a sense, a matter of consumer choice. 
People need this kind of convenience.
    It is already illegal everywhere to fill out an absentee 
ballot for someone. And we have seen, where there have been 
problems, that that has been what has been going on. There is 
no evidence of an actual----
    Mr. Aguilar. And that is election fraud, and that is 
illegal already.
    Mr. Waldman. And it is done to voters, not by voters.
    Mr. Aguilar. Yeah.
    Mr. Waldman. There is no evidence that people helping 
collect ballots has actually caused impropriety. And we ought 
to be looking for ways to deal with actual risks to the system 
rather than things that are less real.
    Mr. Aguilar. Thank you so much. I appreciate it.
    Ms. Wright, maybe 10 seconds?
    Ms. Wright. Sure. I mean, I would just mention that a lot 
of harm has been done in the name of combating voter fraud.
    And one of the best examples is that the first victims of 
the Indiana voter ID law that was put into place was a group of 
a dozen nuns, residing at a convent, who showed up at the 
polls, the place they had always voted. They didn't have 
driver's licenses, they didn't have passports, and they had to 
be turned away, even though the poll worker was one of the nuns 
who lived with them and knew each one of them personally. But 
they didn't have the right ID, so they couldn't vote.
    We should really avoid doing harm in the name of protecting 
against nonexistent voter fraud.
    Mr. Aguilar. Thank you, Ms. Wright.
    Thank you, Madam Chairwoman.
    Chairwoman Fudge. Thank you.
    Ranking Member Davis, you are recognized for five minutes.
    Mr. Davis of Illinois. Thank you.
    And I appreciate the discussion on ballot harvesting. We 
had an interesting discussion yesterday on ballot harvesting. I 
just find it odd that we have a State where it is still 
illegal; somebody going to jail. We had a special election.
    I have a chain-of-custody concerns. And I think all of us, 
we want to make sure that every ballot is cast and every ballot 
is counted correctly. We ought to all be concerned about chain-
of-custody issues.
    And I think the process can easily be manipulated. That is 
what we saw in North Carolina. And, frankly, until it was legal 
in California, you know, somebody there may have gone to jail 
for the same thing. We may have actually been able to 
investigate whether the fraud existed a little better.
    I am interested in finding that RNC study you talked about. 
I haven't seen it, but we will call--my team will call over, 
but I would love to get with you afterwards, Ms. Lhamon.
    And thank you all for your testimony.
    Look, we all want to make sure that everybody has a chance 
to vote. We all want to make sure that the processes are in 
place to give every single citizen in this country who is 
eligible to vote the right to cast that ballot.
    I am in Illinois. Obviously, we have many provisions that I 
am supportive of. Same-day registration, that allows folks in 
my area to actually have every opportunity to cast that vote.
    But we also can't take away what we have already seen 
happening. Mr. Waldman said in his opening testimony, we saw 
tremendous increase in midterm voting in 2018. Great. Great. 
Let's not sidestep that success. Let's build on it. Let's work 
together and say, this is great, it is working.
    Ms. Wright, you mentioned--well, I will come back to you. I 
have a couple of questions real quick for Ms. Lhamon.
    Ms. Lhamon, I don't have Native American Tribes in my 
district, but I know you mentioned them in your opening 
testimony. For my knowledge, how many Native American Tribes 
are there in the United States?
    Ms. Lhamon. I don't have that number off the top of my 
head, but it is a not-small number.
    Mr. Davis of Illinois. Okay. You know, you said you have 
heard from Native Americans across this country about their 
difficulties in casting votes. What has the overall trend been 
for Native American turnout across the country over the past 
few election cycles?
    Ms. Lhamon. It continues to fall below the 50-percent 
threshold that was the basis for enacting the Voting Rights Act 
in the first place, looking at turnout. So very, very serious 
concerns in particular for Native American voters.
    Mr. Davis of Illinois. So they didn't follow the same trend 
from 2014 to 2018 in the midterms?
    Ms. Lhamon. They may have been up, but it is well below the 
50-percent threshold.
    So the concern is that Native Americans in this country 
continue to have very, very difficult challenges for voting. 
Their polling places have been reduced. The Native IDs, as I 
mentioned, are not always accepted, even though they ought to 
be accepted. There are considerations of vote by mail----
    Mr. Davis of Illinois. I was at one of our field hearings 
in North Dakota, in Standing Rock Reservation. Great people. 
Great opportunity to hear about a process that doesn't exist in 
my home State of Illinois. They actually have no registration 
process in North Dakota. I mean, you walk in and prove you have 
an address in North Dakota, same day, boom, you are there.
    Ms. Lhamon. That is singular in the United States.
    Mr. Davis of Illinois. Yeah. And then, all of a sudden, 
even with no registration, they were allowing the Native 
American Tribal leaders to verify anybody with just a letter 
from the Tribe as somebody who lived there to go vote.
    So you are saying there are still more things that we need 
to do, right?
    Ms. Lhamon. We have substantial challenge with respect to 
Native American voters in North Dakota, among other States----
    Mr. Davis of Illinois. And I also heard in North Dakota 
that the turnout was substantially higher. I mean, there is 
improvement.
    Ms. Lhamon. And improvement is wonderful and ought to be 
celebrated. My only point is that it is below 50 percent and 
that that is a very serious concern.
    We ought to be celebrating increased turnout wherever it 
exists. And we also ought to be recognizing that, across the 
board, in this country, we have very, very low turnout for 
voters. And that is, in itself, a concern.
    Mr. Davis of Illinois. Okay. Well, then what other 
processes would you recommend to increase voter turnout in 
Native American areas and other areas?
    Ms. Lhamon. Well, certainly with respect to Native 
Americans, we want to make sure that there are accessible 
polling places, that people have clarity, including in Native 
languages, about how to vote and what is involved in voting. 
The Alaska State advisory committee for the Commission heard 
astonishing testimony about failure of translated materials, 
failure of people available to----
    Mr. Davis of Illinois. Newer technology, 21st-century 
technology can be helpful.
    Ms. Lhamon. It would be helpful. And, also, there are 
particular challenges in places like Alaska, where there are 23 
different languages----
    Mr. Davis of Illinois. Absolutely.
    Ms. Lhamon [continuing]. In which materials need to be 
translated.
    Mr. Davis of Illinois. I apologize. I do have one more 
question for Ms. Wright.
    And I want to get to you. You mentioned prison in the 
Census counts, how they may unfairly give an advantage to rural 
areas if the prisoners are counted, and it may adversely affect 
the home areas of those prisoners.
    Were you saying that assuming that most would come from 
more urban areas?
    Ms. Wright. No. The vote dilution comes in when population 
is counted as if it were----
    Mr. Davis of Illinois. As it is----
    Ms. Wright [continuing]. Rather than at the prison.
    Mr. Davis of Illinois. So the population is counted, and 
the Census----
    Ms. Wright. Right.
    Mr. Davis of Illinois [continuing]. Is used, the data is 
used for the area----
    Ms. Wright. Instead of in their home communities. And----
    Mr. Davis of Illinois. Okay. So would that same application 
be valid for colleges and universities, where rural students go 
to urban areas?
    Ms. Wright. Well----
    Mr. Davis of Illinois. Does that unfairly punish the rural 
areas?
    Ms. Wright. But in colleges and universities, students do 
have the right to register and vote in those communities if 
they----
    Mr. Davis of Illinois. They didn't commit----
    Ms. Wright [continuing]. Intend to stay there.
    Mr. Davis of Illinois [continuing]. A crime that put them 
in prison.
    Ms. Wright. Yes, but the point is, when you look at the 
logic of how this system works--take Maine and Vermont, for 
example. When incarcerated people in Maine and Vermont cast 
their ballots, they don't cast them in the prison community. 
They cast them absentee from their home communities. And yet 
the Census Bureau is counting them as residents of the prison. 
And that just doesn't match up, and it creates all kinds of 
inequities.
    Mr. Davis of Illinois. Well, I appreciate your logic, and I 
just don't necessarily know if I agree with it. But thank you 
for your time.
    And thank you all.
    I yield back.
    Chairwoman Fudge. Thank you very much.
    Let me just say a few things, as we were talking about 
Native Americans.
    First off, I think it is illegal for us to even hold them 
to State standards. Their treaties are with the Federal 
Government, and they should only be held to the standard that 
the Federal Government has and not to what the States have. 
That is number one.
    Number two, I think it is important that we understand that 
in 2018 their numbers were up because the Tribal leaders had to 
go and get new IDs for all of the people on their particular 
reservations. When you look at the fact that on some 
reservations in this country the unemployment rate is above 60 
percent, they were not going to go and buy IDs. They would not 
have voted had not resources come from either the Tribal 
leaders or others in their community to help them get a new ID, 
an ID that had to put an address on it. They have never had an 
address in all these years. They have used post office boxes. 
But, all of a sudden, we are going to make it more difficult, 
because now they have to have an actual address to go and vote.
    I am just trying to figure out--maybe you can help me--why 
is it that they don't want us to vote? Can somebody answer that 
question for me?
    Just answer it. Anybody. Why are they making this 
difficult? I mean, why do we not have bipartisan support 
anymore? Just somebody help me figure it out. Because, I mean, 
is it just because of the way I look, or what is it? Please.
    Mr. Davis of Illinois. Madam Chairwoman, are you 
insinuating that I don't want you to vote? Republicans?
    Chairwoman Fudge. First, let me just say, I am asking the 
question of the panel.
    And, secondly, I am not asking anything. I am just asking 
the question, why has it become so difficult for people of 
color, for Native Americans, for young people--I mean, you want 
to equate people in prison to kids in college. That is insane.
    Mr. Davis of Illinois. Actually----
    Chairwoman Fudge. The question----
    Mr. Davis of Illinois. Will the gentlelady yield?
    Chairwoman Fudge. I am reclaiming my time.
    Mr. Davis of Illinois. Will the gentlelady yield?
    Chairwoman Fudge. No, I am reclaiming my time. I will not 
yield. The question is to the panel.
    Ms. Lhamon. The increases in impediments to the right to 
vote are extraordinarily distressing. And I think that the 
reasons can be many, but the reality is that the right to vote 
is a core component of democracy. And we, as a country, should 
do better, can be better, ought to be better than we are right 
now in terms of placing those impediments.
    Chairwoman Fudge. So what is the purpose of placing those 
impediments? That is what I am trying to get to. What is it in 
somebody's psyche that believes that, all of a sudden, in the 
last 10 or 12 years, that voting has gone so off the rails that 
we have to change things we have been doing for hundreds of 
years? There was no problem before; why is there a problem now? 
I just don't understand it.
    Mr. Waldman.
    Mr. Waldman. I think, when you look at the whole history of 
the country, it has unfortunately but inevitably required a 
fight to expand and maintain the right to vote and the right to 
participate. As the country is changing demographically, once 
again we are seeing a backlash, and we are seeing laws enacted 
that make it harder for communities of color, immigrant 
communities, and others to vote.
    Happily and fortunately, in the past and in many ways even 
now, there is still bipartisan and left/right support for these 
things. The last time the Voting Rights Act was before this 
Congress, it passed the Senate 98-to-nothing. So many of these 
measures we are describing as significant reforms have been 
enacted with bipartisan support.
    In the State of Illinois, automatic voter registration 
passed unanimously and was signed into law by Governor Rauner, 
a Republican Governor of Illinois. And in Florida, a massive 
bipartisan majority voted to restore the right to vote to 1.4 
million Florida residents who had their right denied because of 
a past felony conviction, which was a direct remnant of the Jim 
Crow era.
    So there is still, deep in the soul of the country, a 
belief in the right to vote. And we all encourage all of you 
and all of us to work to modernize the system so some of these 
fights can be in the past and not in the present.
    Chairwoman Fudge. I guess I am just trying to make a point 
that this same thing--it seems to have just taken on a life of 
its own. Nobody knows where it started; nobody knows why it 
started. We know that it has always been an issue. Voting has 
been an issue in this country for a very, very long time. But I 
would say this: I can trace my family back at least six 
generations in this country. I am as American as anybody in 
this room. I do not believe that people like me, who have 
helped build this Nation, who have never done anything to hurt 
this country, should be made to go through all kinds of hoops 
to be able to do what the Constitution gives us the right to 
do.
    All these people who say they believe in the Constitution, 
they can't possibly, because it says that we all have a right--
an unfettered, unabridged right to vote. It doesn't say you 
have to have a certain kind of ID. It doesn't say that if you 
have been to prison you can't vote. You are still citizens of 
this Nation.
    And so, for to us start to put all of these roadblocks in 
the way, I can't figure it out. You can't figure it out. So it 
is like this has a life of its own.
    But I would suggest to you this: that the more we try to 
erode the rights of people in this country--it is not going to 
stop at voting. It is going to get worse. And if we really are 
patriots and believe in what the Constitution says and believe 
in this great Nation, then we need to make it easier to vote.
    We want to go out here and talk about every other country 
and what they don't do. I bet you, any other democracy in this 
world doesn't do what we do. We should make it a holiday. We 
should make a vote on Saturday, maybe. We should give people 
time off to vote. But, no, we still vote on an agrarian 
calendar day that doesn't even make any sense to do today.
    So I am going to ask each of you, if you would, tell me one 
thing you want to us do to make it easier for people to vote in 
this country.
    We will start with you, Ms. Lhamon.
    Ms. Lhamon. I certainly believe automatic voter 
registration is enormously helpful. And allowing people to be 
able to vote on the day of an election would be extraordinarily 
helpful. So if I had to pick one thing, that would be it.
    Chairwoman Fudge. Thank you.
    And, Ms. Wright, I agree with you, by the way. If we 
continue to count prisoners where they are, when they leave and 
come home, the resources that come from that Census count are 
going to stay in those places where they no longer are. And the 
people who have to take care of them, whether it be through 
Second Chance, whether it be through some other kind of 
diversion programs, whatever it may be, we don't have the 
resources in our community.
    Your one point?
    Ms. Wright. There are so many things that need to be done. 
It is very hard to pick one.
    It is certainly vital to restore some version of the 
preclearance provisions of the Voting Rights Act that were 
struck down in 2013, because that really did unleash the 
floodgates, as we have seen. And that has been an enormous 
weakening of the right to vote.
    Chairwoman Fudge. Mr. Waldman.
    Mr. Waldman. In addition to what has been mentioned, a 
national guarantee of effective early voting and election day 
registration to make it possible for as many people in our 
modern, mobile, and overworked age to vote.
    Chairwoman Fudge. Ms. Nunez.
    Ms. Nunez. All of the above.
    I think it is important to make sure it is convenient to 
both register and vote. So same-day registration and automatic 
voter registration are key to having accurate rolls. And then 
we need to make sure people can cast ballots in a way that 
makes sense, whether that is early, at home, or in a polling 
location on election day.
    Chairwoman Fudge. I thank you all so very, very--did you 
want to make a comment, Mr. Davis?
    Mr. Davis of Illinois. Thank you all very much. I 
appreciate the opportunity to hear from you your suggestions. 
We look forward to continuing to work with you as this 
Subcommittee and, in turn, the House Administration Committee 
moves forward.
    I appreciate the discussion on Census activities. You know, 
the discussion that the Chair and I had here momentarily when I 
asked her to yield--at the time, she didn't. Thank you for 
doing it now. Please don't insinuate that my discussion on 
Census activities and fairness in rural America when it comes 
to other folks who may be counted in areas that they may not 
live in permanently, and the resources in rural America are 
just as important as anywhere else. So that is my discussion. 
And I apologize if I thought you insinuated that there was 
anything other than that, but my discussion was simply on the 
Census track.
    And I am glad that we are having these hearings to talk 
about the need to get more folks to vote. That is what needs to 
happen. But let's also make sure that, every single election, 
every vote is counted and every vote gets to the ballot box.
    I yield back.
    Chairwoman Fudge. Thank you.
    And just to be clear, your discussion about college 
students that have a choice--people in prison do not. And for 
the Ranking Member to say, ``Well, they didn't commit a 
crime''--it had nothing to do with whether they are both 
counted in the same place or not. It just really didn't.
    Mr. Davis of Illinois. It is about fairness when it comes 
to the Census. If they are going to be counted in one part of 
the country--if they are going to be counted in rural America 
for whatever resource purpose there is, the same resources, 
when college graduates go back to their communities where they 
live to take advantage of the resources that are offered in 
workforce investment programs, are just as important as the 
resources that we all, in a bipartisan way, agree to fund in 
every part of America.
    Let's--if we want to talk about the Census----
    Chairwoman Fudge. Mr. Davis.
    Mr. Davis of Illinois [continuing]. We can talk about it, 
but----
    Chairwoman Fudge. Mr. Davis, those people, many of them, 
vote at home in the first place.
    Mr. Davis of Illinois. As somebody who represents four 
public universities, I can tell you, a lot of them don't.
    Chairwoman Fudge. But they have a choice.
    Ms. Wright, did you want to say something?
    Ms. Wright. Well, with your indulgence, I guess I would 
just like to say that the issue of prison gerrymandering is 
clearly an injustice, but in terms of the importance of the 
issues, if I could name one other issue, it would simply be the 
re-enfranchisement of people who have lost the right to vote 
because of criminal conviction. That, in itself, is the core of 
the problem, and prison gerrymandering is one aspect of it.
    Chairwoman Fudge. It is unconstitutional is what it is.
    Thank you all so very, very much for being here.
    I thank this panel, and we will ask the next panel to 
please come to the table.
    [Recess.]
    Chairwoman Fudge. Good morning.
    We want to welcome our third panel. The Ranking Member is 
going have to leave us briefly but is planning to return. So 
thank you all so much for being here.
    Ms. Hannah Fried is the Director of All Voting Is Local, a 
collaborative housed at The Leadership Conference Education 
Fund in conjunction with the American Civil Liberties Union 
Foundation, the American Constitution Society, the Campaign 
Legal Center, and the Lawyers' Committee for Civil Rights Under 
Law. Ms. Fried has run voter protection efforts for two 
Presidential campaigns and spent several years in Federal 
Government services at the Department of Justice and the 
Environmental Protection Agency.
    Welcome.
    I know I am not doing this in order, but Ms. Barbara 
Arnwine--how are you?--is the National co-Chair of the National 
Commission for Voter Justice. Ms. Arnwine is also the President 
and Founder of the Transformative Justice Coalition and served 
as head of the Lawyers' Committee for Civil Rights Under Law 
from February of 1989 through June of 2015. Ms. Arnwine is 
renowned for her contributions on critical justice issues 
including passage of the landmark Civil Rights Act of 1991 and 
the 2006 reauthorizational provisions of the Voting Rights Act.
    Welcome.
    Denise Lieberman is the Director of Advancement Project's 
Power and Democracy Program and a senior attorney. Ms. 
Lieberman works to identify and remove systemic barriers to 
voting. A seasoned constitutional and civil rights lawyer, Ms. 
Lieberman works on the ground in Missouri, in addition to 
advancing broad voter protection initiatives nationwide, 
engaging in political analysis, lobbying, legal advocacy, 
litigation, and community-building to advance electoral reform, 
including spearheading a nationwide advocacy effort to combat 
repressive voting legislation this past year.
    Welcome.
    Ms. Kase serves as the Chief Executive Officer of the 
League of Women Voters of the United States, where she is 
leading the organization through a period of rapid 
transformation and growth, focused on building power by 
engaging in advocacy, legislation, litigation, and organizing 
efforts centered around issues of voting rights and democracy 
reform. Prior to joining the League in 2018, she served as COO 
of CASA, an organization at the forefront of the immigrant 
rights movement, representing nearly 100,000 members.
    As you know, you will see a lighting system in front of 
you. When you begin, the light will turn green. When you have 1 
minute left, you will see the yellow light. And when you see 
the red light, please prepare to wrap up.
    Ms. Fried, you are recognized for 5 minutes.

  STATEMENTS OF HANNAH FRIED, DIRECTOR, ALL VOTING IS LOCAL; 
VIRGINIA KASE, CHIEF EXECUTIVE OFFICER, LEAGUE OF WOMEN VOTERS; 
  BARBARA ARNWINE, NATIONAL CO-CHAIR, NATIONAL COMMISSION FOR 
   VOTER JUSTICE; AND DENISE LIEBERMAN, SENIOR ATTORNEY AND 
   PROGRAM DIRECTOR, POWER AND DEMOCRACY, ADVANCEMENT PROJECT

                   STATEMENT OF HANNAH FRIED

    Ms. Fried. Thank you, Chairwoman Fudge and Members of the 
Subcommittee. I am Hannah Fried. I am the Campaign Director for 
All Voting Is Local, a collaborative campaign of The Leadership 
Conference Education Fund. We fight to eliminate discriminatory 
barriers to voting before they happen. Since 2018, we have 
worked in Arizona, Florida, Ohio, Pennsylvania, and Wisconsin. 
Thank you for the opportunity to testify.
    Our election system is broken. In 2016, problems at the 
polls prevented 1 million voters from casting a ballot. These 
problems disproportionately harm voters of color, young people, 
low-income Americans, and voters with disabilities.
    In the past two decades, Congress has recognized the need 
for strong Federal protections for the right to vote, passing 
the Help America Vote Act in 2002 and reauthorizing the Voting 
Rights Act in 2006. Both passed with strong bipartisan support 
and a robust record.
    Despite this, in 2013, five Supreme Court Justices gutted 
the critical protections of the Voting Rights Act Section 5 
preclearance system. Since the Shelby case, States and 
localities across the country have erected barriers to voting 
without critical safeguards.
    Federal protections for voting are as vital today as they 
have been for the past century. The 2018 elections were lauded 
for record turnout, but eligible Americans voted at a rate of 
less than 50 percent and faced insurmountable obstacles.
    State officials purged voters from the rolls, sometimes 
simply for not voting. From 2010 to 2018, Georgia's Secretary 
of State, now-Governor Brian Kemp purged more than 1.4 million 
voters.
    Worse still, some States are more committed to purges than 
to ensuring an accurate list maintenance process. In 2018, 
Georgia's ``exact match'' law put into question the 
registration status of 50,000 voters over minor inconsistencies 
in their registration records.
    Just recently, Ohio's Secretary of State admitted their 
purge system was rife with errors. Just shy of half a million 
Ohioans, many of them African-American and low-income voters, 
will be purged this year under this flawed system.
    In 2018, voters faced large-scale polling place changes. 
The Leadership Conference Education Fund's ``Democracy 
Diverted'' report found that, in former Section 5 States, there 
were 1,173 fewer polling places in 2018 than in 2014, despite 
last November's record turnout. Maricopa County, Arizona, 31 
percent Latino, closed 171 polling locations after 2012, the 
most of any county studied in the report.
    Widespread polling place changes lead to the overuse of 
provisional ballots. Our campaign's analysis of 717 former 
Section 5 counties found that voters in counties with more 
polling place closures are more likely to be asked to cast a 
provisional ballot.
    HAVA contemplated that provisional ballots would be used as 
a failsafe, but they are less likely to be counted than a 
regular ballot. Their overuse is the canary in the coal mine, 
signaling systemic problems that result in voters not knowing 
where or how to vote.
    Our campaign's analysis of provisional ballot usage has 
found strong connections to race. In Pennsylvania, voters in 
Philadelphia County, 41 percent African-American, are five 
times as likely to get a provisional ballot than voters in 
Allegheny, 12.7 percent black, or Berks, 4 percent black.
    In 2018, African-American students faced unique barriers to 
voting. At Ohio's two HBCUs, voters cast a disproportionate 
number of provisional ballots and were twice as likely to have 
their ballots rejected than voters countywide. In Florida in 
2018, Florida A&M University, the State's sole public HBCU, was 
the only major public campus without an early vote site.
    In 2018, voters of color were more likely to have problems 
voting by mail. An analysis by All Voting Is Local of our 
States found that voters in mostly white communities are less 
likely to have their mail-in ballots rejected than voters 
living in communities of color.
    In Arizona, just over 1 percent of Native American voters 
are on the State's permanent early voting list, compared to 
approximately 80 percent of non-Native-American voters.
    In 2018, strict photo ID laws targeted African-American 
voters with almost surgical precision, as the Fourth Circuit in 
2016 wrote of North Carolina's law. Last fall, our campaign 
helped hundreds of Wisconsin voters through the arduous process 
of complying with that State's strict photo ID law, a law that 
has been found to deter from voting more than 20 percent of 
African-American registered voters compared to 8.3 percent of 
white registrants.
    Election administration practices can and should be used to 
expand access to the ballot for all eligible Americans. Too 
often, they instead become a barrier to voting, 
disenfranchising millions of eligible Americans, particularly 
voters of colors.
    Any wrongfully disenfranchised voter is one too many. 
Congress must restore and expand safeguards of the right to 
vote, ensuring that every eligible American, regardless of 
race, income, age, or ability, can make their voice heard.
    Thank you.
    [The statement of Ms. Fried follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    
    Chairwoman Fudge. Thank you very much.
    Ms. Kase, please, five minutes.

                   STATEMENT OF VIRGINIA KASE

    Ms. Kase. Chairwoman Fudge, Ranking Member Davis, and 
Members of the Subcommittee, my name is Virginia Kase, and I 
serve as the Chief Executive Officer at the League of Women 
Voters of the United States. Thank you for the opportunity to 
testify today on voting rights and election administration in 
America, an issue of paramount importance to our organization.
    The League of Women Voters is nonpartisan, founded nearly 
100 years ago in 1920 by women who understood the importance of 
securing voting rights for women. The League is active in all 
50 States as well as the District of Columbia, with 764 local 
affiliates, in every congressional district in our country.
    In 1965, the Voting Rights Act outlawed racial 
discrimination in voting and established procedures to protect 
equal access to the vote for everyone. Despite a long history 
of support from legislators of all political parties, in 2013 
the Supreme Court overturned key provisions of the VRA in the 
case of Shelby County v. Holder.
    Since that decision, politicians across the country have 
passed unnecessarily restrictive legislation and adopted 
practices that discriminate against and disenfranchise voters 
of color and minorities whose first language is not English, 
making it harder for them to register and much more difficult 
to vote.
    These restrictive legislative initiatives included efforts 
to implement photo ID requirements in States like Texas, 
Wisconsin, Missouri, and Pennsylvania.
    The League pushed back against efforts to roll back early 
voting hours in Ohio, and we pushed back against efforts to 
roll back and eliminate pro-voter reforms like preregistration 
and same-day registration in North Carolina. Essentially, the 
Shelby decision weakened the Voting Rights Act as a mechanism 
to fight discrimination by striking down important preclearance 
and oversight provisions.
    These suppressive laws have a major impact on our 
elections: excessive, long lines in urban areas, where 
minorities reside; consolidation of polling sites with little 
or no notice; reduction in early voting hours that limit 
participation; massive voter purges with no effective notice 
that cause registration barriers on election day; and 
inadequate numbers of machines in areas where early voting 
showed a clear influx in voter participation.
    And because these issues repeatedly show up in areas with 
large minority populations, in States like Georgia, Florida, 
North Carolina, Arizona, Michigan, Ohio, and Texas, it is 
unlikely that this scheme was incidental or unintentional but, 
instead, expressly targeted the growing population of the new 
American majority, including minorities, youth, and income-
sensitive individuals. In effect, these suppressive laws shut 
out millions of the new American majority and denied citizens 
the protection of their right to vote.
    With these minority-targeted voting barriers road-tested, 
the 116th Congress has a momentous opportunity to restore 
voting rights in this country. The opportunity to strengthen 
the Voting Rights Act by creating a new formula that would 
trigger preclearance of certain changes to voting laws and 
administrative practices is needed now more than ever. And the 
creation of a national notification process that lets all 
voters know when changes to election processes may occur 
ensures that voters are informed prior to them showing up to 
the polls on election day.
    If Congress fails to act immediately, this will be the 
first redistricting cycle to occur without a fully functioning 
Voting Rights Act and will allow States to push through 
unjustifiable changes to their laws that will have a direct 
impact on voters for a decade.
    Without continued oversight and safeguards in place to 
protect voters from all backgrounds, it is left to 
organizations like the League of Women Voters and other 
nonprofit voting rights group to inform and protect voters 
affected by these policies and practices.
    But that should not be the sole role of the League and our 
partners. It is the responsibility of government to create and 
enforce laws that prevent barriers in the democracy our 
forefathers designed to foster an open, transparent government 
powered by the people, for the people--all of the people. It is 
the duty of government to protect the rights of voters and to 
encourage participation in our political system, not create 
barriers that prevent participation.
    As we have for nearly 100 years, the League looks forward 
to working across the aisle to determine the points of 
consensus for any and all voting rights legislation considered 
before Congress. We look forward to working with elected 
leaders to protect and uphold their responsibility of ensuring 
voters have the unobstructed ability to exercise their right to 
vote.
    Thank you again for the opportunity to testify on the 
importance of restoring the Voting Rights Act, and I look 
forward to taking questions and continuing to work with you all 
on this important issue.
    [The statement of Ms. Kase follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very much.
    Ms. Arnwine, you are recognized for five minutes.

                  STATEMENT OF BARBARA ARNWINE

    Ms. Arnwine. Thank you, Chairwoman Fudge, Ranking Member 
Davis, and Members of the Subcommittee. Thank you for the 
opportunity to testify today on this important topic.
    I want to dedicate my remarks, of course, to the memory of 
Congressman Elijah Cummings.
    My name is Barbara Arnwine. I have already been introduced. 
I am here representing the National Commission for Voter 
Justice, which was conceived by Reverend Jesse Louis Jackson, 
Sr. He is represented here today by Reverend Todd Yeary of 
Baltimore.
    And I want to make sure that we get this into the record, 
that this Commission was formed in July 2017 to respond to the 
myriad voter suppression measures in the post-Shelby v. Holder 
era.
    Also, many will recall President Donald Trump's manifold 
assertions, post-election, of pervasive voter fraud and his 
subsequent creation of the now-defunct Presidential Advisory 
Commission on Election Integrity. We felt there was an urgent 
need instead to counteract his dangerous and erroneous 
narrative and instead provide a truthful account of the urgent 
need for the protection of our democracy from the insidious 
threat of the modern era of voter suppression.
    I created the Map of Shame in April of 2011, which was the 
first national tool to expose and educate the American public 
about the rise of contemporary voter suppression measures. 
Since I released the Map of Shame, there has been erected a 
formidable and substantial regimen of disenfranchising barriers 
to the ballot box and to the ability to have the votes counted 
for millions of eligible but vulnerable voters.
    Since its launch in January 2018, the Commission has held a 
series of hearings, compiled over 14 State reports looking at 
voting rights, and has engaged in many voter education and 
other efforts.
    One thing that we heard in June of 2018 from Professor 
Donald Jones of the University of Miami was that when the only 
real proper way to look at this era that we are in is 
understanding that when it comes to voting rights, America is 
facing a second civil war. That is how extreme this period is. 
This reality of an active war against the rights of American 
citizens to exercise the right to vote and have their votes 
counted is supported by mounting evidence when we consider the 
myriad of voter suppression laws passed in the States, the 
multitude of voting rights cases filed in the State and Federal 
courts, the numerous reports documenting actions by the States 
which have impaired the rights of citizens to vote and have 
their vote counted, and the continuing negative cases from the 
Supreme Court, and the new insidious threat of Russian use of 
social media, as documented by the Senate Select Committee on 
Intelligence investigation report.
    We also have created a new tool and document that is called 
the 61 Forms of Voter Suppression. And let me be very clear 
that a year ago, this was less than 30. That the creativity, 
the insidiousness, the rapid expansion of voter suppression 
measures is that extreme and it is growing. If I were to do 
this today, I would probably add four more. That just shows you 
how creative these States are being and how persistent they are 
being in pursuing this.
    Our major findings of our hearings have been already 
expressed by some of the testimony, but I just want to make 
clear one point. I mean, there are two really critical things 
that we need to appreciate today. One is that when Shelby v. 
Holder was decided, we were only 18 months into the regimen of 
modern voter suppression. We are now eight years deep into this 
regimen, and the Congress now knows a lot more than the Supreme 
Court knew back in 2013. So you have substantially more 
evidence about the impact of the absence of a preclearance 
mechanism.
    The second thing I want to make clear is that nothing in 
the world can substitute for preclearance to prevent racial 
discrimination, and that in this era of massive voter 
suppression, that this clumsy and ineffective regimen that 
exists is not enough.
    So we want to commend the Congress. We want to commend you 
for this hearing.
    We have things we would like to move into the record: The 
testimony of Reverend Jesse Jackson, the 61 Forms of Voter 
Suppression, and, of course, I would like to expand my remarks.
    Thank you so much.
    [The statement of Ms. Arnwine follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    With no objection, so ordered. Thank you very much.
    Ms. Lieberman, you are now recognized for five minutes.

                 STATEMENT OF DENISE LIEBERMAN

    Ms. Lieberman. Thank you, Chairwoman Fudge and Members of 
this Subcommittee, for holding this important hearing today on 
voting rights and election administration. My name is Denise 
Lieberman. I am the Director of Power & Democracy at 
Advancement Project National Office.
    Advancement Project is a national racial justice 
organization that works in deep partnership with grassroots 
organizations to develop community-based solutions that are 
inspired by the tactics that produced the earlier landmark 
civil rights victories. We are proud to stand behind our many 
partners on the ground in the States who are fighting battles 
for racial justice and the right to vote. And the need is 
great. We are faced today with the greatest battle for the 
solvency of our democracy since the post-Reconstruction era.
    I am particularly gratified, Chairwoman Fudge, that this 
Subcommittee has chosen to have a people's panel, because our 
fight to protect the right to vote and the need for Congress to 
take definitive action to secure the right to vote for all 
citizens lies in the lived experiences of the people for whom 
protection is most needed and the people whose voices are most 
often silenced. Because at the end of the day, the right to 
vote is about self-determination, the right of people to make 
decisions about their own lives and their own destinies. It is 
about dignity. It is society's structural mechanism that says 
you count, literally. And so when the right to vote is denied 
or abridged, it says you don't count.
    And so this is a very, very personal matter. As much as it 
is policy, as it is legal, and we need to understand all of 
these statistics, it is deeply rooted in the basic human 
dignity of all people.
    And we also know that any remedial actions that this body 
takes are going to need to be justified in legal challenges 
based on the record of the lived experiences of the people who 
these measures impact most.
    So Advancement Project has been pleased to work in 
collaboration with other members of the Racial Equity Anchor 
Collaborative to support this Subcommittee's field hearings 
that you have held over the last eight months, documenting the 
state of voting rights in jurisdictions around the country. The 
Anchor Collaborative members, which include Advancement 
Project, Asian & Pacific Islander American Health Forum, Demos, 
Faith in Action, the NAACP, National Conference of American 
Indians, the National Urban League, Race Forward, and UnidosUS, 
are all dedicated to advancing a voting system that is free, 
fair, and accessible to all people, regardless of race, 
ethnicity, ability, or language proficiency.
    In addition to helping identify leaders on the ground to 
testify at this Committee's field hearings, the Anchor 
Collaborative partners embarked on a robust grassroots effort 
to lift up the voices of everyday voters of color and their 
experiences. So to complement the field hearings, we conducted 
a series of people's hearings in select States to gather 
firsthand accounts of voter suppression, and through the 
creation of a website, We Vote We Count, where voters across 
the country can share their voting experiences.
    We held hearings in States like Alabama, North Carolina, 
Ohio, North Dakota, South Dakota, Georgia, Florida, and Texas, 
and heard from voters firsthand. Witnesses there attested to, 
among other things, having to wait in long lines to cast 
ballots, being denied bilingual ballots or language assistance 
at the polls, being denied disability assistance at the polls, 
having to restore their registration status after an illegal 
purge, undertaking onerous barriers to restoring their voting 
rights after a criminal conviction, having to stand up to last-
minute changes to polling locations and hours of operation, 
rampant misinformation, and voter intimidation.
    The reports also capture the impact of voter ID laws, cuts 
to early voting, the increasingly scarce polling places in 
ever-changing locations, which present significant burdens for 
those without easy access to transportation or inflexible work 
schedules.
    And the results were clear. Since the loss of Federal 
oversight in the post-Shelby era, voters of color across the 
country are confronted with renewed barriers to casting a 
ballot. We have documented these reports in a soon to be 
released report called ``We Vote We Count: The Need for 
Congressional Action to Secure the Right to Vote for All 
Citizens,'' which includes testimonies from African Americans, 
Asian Americans, Native Hawaiian, Pacific Islanders, Hispanics, 
and Native Americans, whose firsthand accounts provide a 
glimpse into the inner workings of actual access to the ballot 
around the States, and compel this body to take action to 
restore the preclearance provisions of the Voting Rights Act.
    What we saw around the country is that voters have lost 
confidence in the wake of the Shelby decision in the ability of 
the Department of Justice to fairly secure their right to vote. 
And so we know that the Shelby decision emboldened attacks on 
the right to vote, not just in the former preclearance States, 
but around the country, designed to curtail the growing 
political power of voters of color as they emerge into the new 
American majority.
    And so we thank you today, Congresswoman Fudge and members 
of this Committee, for holding this hearing. Please heed the 
words of these voters across the country and take action to 
secure Federal protection for the right to vote.
    Thank you.
    [The statement of Ms. Lieberman follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    Thank you all so much.
    Mr. Aguilar, you are recognized for five minutes.
    Mr. Aguilar. Thank you, Madam Chairwoman. Thank you to the 
panelists.
    Ms. Lieberman, I will start with you, and then we can work 
our way across, because you spoke about barriers in your new 
report. Can you talk to me about some of the most common 
barriers? You know, we have taken testimony, and we have gone 
around the country and we have seen quite a few. Talk to us 
about what your research tells you are the barriers that you 
often find, but also specifically, if the panel can talk a 
little bit about vulnerable and emerging populations and the 
types of barriers that those constituencies face.
    Ms. Lieberman. Absolutely. And what we saw was that voters 
were reporting difficulties at every step of the process, from 
registering to vote, to casting a ballot, to having those 
ballots counted. We have seen a rise in discriminatory voter 
registration procedures, onerous processes for being able to 
register to vote, and particularly, onerous processes for 
people who are attempting to restore their rights to vote, 
either after an illegal purge or after having their rights 
suspended due to a felony conviction.
    We just heard, for example, last week in Louisiana during 
early voting, from voters who, despite having gone to numerous 
government agencies in the wake of last year's passage of Act 
636, which restored voting for people with felony convictions 
who have been out for five years, were still not able to cast a 
ballot, despite having jumped through numerous hoops and 
hurdles. Those hoops and hurdles were pervasive throughout the 
processes that voters described, through polling place closures 
and changes, to having to drive numerous hours.
    Witnesses in Alabama testified to the closure of over 30 
DMV locations in disproportionately African American and poor 
counties after that State enacted a voter ID law, causing 
people to have to drive sometimes up to four hours to get to a 
process. I could go on and on, but these populations are 
significantly impaired.
    In North Dakota, a witness testified to, in a county that 
has a 36 percent poverty rate, the barriers of people having to 
drive numerous hours just to get all the underlying documents, 
to get the IDs, in order to vote under that State's ID law. So 
what we found is that they are pervasive throughout the voting 
process.
    Mr. Aguilar. Ms. Arnwine.
    Ms. Arnwine. Yes. We found that the populations that we 
looked at were--sorry again--the populations we looked at were 
African Americans, Latinos, Native Americans, Asian Americans, 
low-income voters, voters with disabilities, student voters, 
formerly incarcerated persons, newly naturalized citizens, 
voters displaced by natural disasters, and homeless voters. 
These are some of the most vulnerable voters, and they are 
really bearing the brunt of the voter suppression. And by our 
calculation, millions of voters have been denied or blocked 
from voting who come from those categories. Not to mention 
those who are LGBTQIA and may have changed their identity, 
name, or sexual identity.
    We found that of the measures, the 61 Forms captures a lot 
of these measures, because that is how many there really are. 
There are so many more. But most former--but most of the ones 
that you have already heard, some of them, such as our 
witnesses talked about targeted poll closures, exact-match 
requirements for registration and for counting absentee 
ballots. The refusal to place polling sites on student 
campuses, which is now a big fight again in Texas, but that was 
a huge issue in Florida. And coming out of our hearing, there 
was a lawsuit filed that challenged the refusal to put polling 
places on student campuses in Florida for early voting, and 
they won it. And they were able to have those polling sites in 
2018.
    We also heard about voter caging, especially in Michigan, 
and in many other States; Texas, Alabama. Voter purging, that 
was one of our first hearings that we really start realizing up 
front, by the third hearing, we knew that voter purging was a 
huge problem in our country.
    And I still think that, realistically, the ability to 
intercept and fight voter purging has been one of the weakest 
parts of our community's ability to respond. And it is 
problematic because it is widespread, and there is many States 
where there is no activity going on to stop it.
    Onerous voter ID, failure to follow State procedures, like 
we saw in South Carolina, where they failed to follow their own 
procedures as to staffing of polling places, resulting in 
literally some of the longest lines in, you know, targeted 
minority neighborhoods. We also saw abuses of provisional 
balloting, disparate impact between white and people of color 
jurisdictions created by the failure to provide adequate 
election equipment and staffing, racial gerrymandering, cuts to 
early voting----
    Chairwoman Fudge. Ms. Arnwine, I am going to have to cut 
you off.
    Ms. Arnwine. Yes, okay. But I just want to--he asked me.
    Chairwoman Fudge. If you want the other two to quickly 
answer, we can----
    Ms. Arnwine. Yes.
    Mr. Aguilar. If you could.
    Ms. Arnwine. Sorry.
    Chairwoman Fudge. Thank you.
    Ms. Arnwine. Yes.
    Ms. Kase. So I will go quickly. Just a few examples in 
addition to the ones that have been cited. For example, when we 
see people who have finally become re-enfranchised after being 
incarcerated, there are additional attacks on that by requiring 
them, for example, in Florida, to pay fines, a restitution, in 
order to be able to do that. So every single time you see that 
we try to overcome these barriers, there are new ones that are 
put in people's places.
    Recently, we had a Supreme Court decision, Russo v. Common 
Cause. The League of Women Voters was part of that case. And we 
now are very concerned that we are going to see partisan--I 
mean, racial gerrymandering disguised as partisan 
gerrymandering, because there has basically been a green light 
for that. We have seen broken down election equipment. The 
League is on duty every election day. We are looking in every 
congressional district, looking at--seeing what is happening on 
the ground.
    We had six-hour lines in Georgia because of broken down 
voter equipment. And we are doing rapid response. It should not 
be the responsibility of nonprofit organizations like ours to 
have to do rapid response because the government is not doing 
what they are supposed to be doing to enfranchise voters.
    Senior citizens, rural communities, minorities, and youth 
all having difficulties accessing IDs. Third-party voter 
registration criminalization, like what recently happened in 
Tennessee, that we were able to fight back and combat once 
again. And so it is just these constant, constant attacks that 
communities are facing, and we, organizations like ours, are 
being responsible for addressing these.
    Mr. Aguilar. Thank you, Ms. Kase.
    Ms. Fried, I am so sorry.
    Chairwoman Fudge. Thank you.
    And just, by the way, did you know that the director of the 
League of Women Voters was on the purge list in Ohio?
    Ms. Kase. Yes, I did. And we have had many situations like 
this. One of the oldest voting rights organizations in the 
country, and we are not immune.
    Chairwoman Fudge. Ms. Fried, if you want to answer very, 
very quickly, I will let you.
    Ms. Fried. I will. Thank you.
    What I would like to highlight from what my fellow 
panelists have said is that the problems that American voters 
are facing are not singular; they are stacking. A voter who has 
a problem getting a voter ID, then get to the polling--has to 
drive miles to get to their polling place, then there is a line 
at the voting location; these problems are not singular in 
their origin. And our solutions, our response to them, needs to 
be across the spectrum. There need to be both Federal statutory 
protections as well as State administrative protections, laws 
and practices that expand access to the ballot, particularly in 
communities of color.
    Chairwoman Fudge. Thank you. Thank you.
    Let me just--just for a moment, just pretend that I am 
Chief Justice Roberts, and I would just like for you to make 
the case as to why we should fully reinstate the Voting Rights 
Act and what you think the preclearance formula should look 
like, if you have any idea. We are going to start at your end, 
Ms. Fried.
    Ms. Fried. Thank you. In between 2013 and 2018, there were 
almost 1,700 polling places that closed in former section 5 
jurisdictions. The Leadership Conference released just earlier 
this fall a report discussing these changes. Seventy-five 
percent of those happened between 2014 and 2018, despite the 
increase in turnout in 2018.
    Voter suppression is pervasive. Voters in this country face 
extraordinary barriers to the ballot. Our ability to vote, the 
ability particularly of communities of color to vote, is, 
frankly, miraculous in light of the barriers that they face. 
This is especially true in former Section 5 areas. Poll 
closures, voter ID laws, a lack of access to early vote, 
particularly in communities of color, restrictive hours of 
early vote, these problems are widespread, and they are 
pervasive, and we aren't seeing the kinds of improvements to 
them that we need to be.
    What preclearance allowed us to do was to understand, not 
only that changes are happening, but the impact that they have. 
Without preclearance, we can't understand fully the impact on 
communities of color of these changes. It is absolutely vital 
that preclearance be restored.
    Chairwoman Fudge. Thank you.
    Ms. Kase.
    Ms. Kase. If you were Chief Justice Roberts, I would say 
that we have three bodies of government for a reason. And the 
Supreme Court's job is to serve as a representative of the 
American people. And when we see people's rights being violated 
time and time again--and the most fundamental right that we 
have as citizens of this country is our right to vote, to have 
our voice heard--that the Supreme Court has a responsibility to 
protect that right so that every citizen is considered equal.
    We talk about equal under law. We should be equal in the 
ballot box. And it means removing barriers for each citizen to 
exercise that right.
    But I would say that there are already remedies that you 
all have in place that have been proposed. And one of the ones 
that we are really in favor of is the formula under 
Representative Sewell, which is statewide having 15 or more 
violations over the past 25 years, at least one of which was 
committed by the State itself. In political subdivision, three 
or more violations during a calendar year. Voting violations, 
voting violations of the 14th or 15th violations. I mean, you 
have all of this information yourself, so I don't want to waste 
too many people's time, because there is just too much to read 
off. But the formula is here, and we support these formulas, 
and we think that Congress must act. You must act now, because 
we are coming into very serious elections this coming year.
    Chairwoman Fudge. I will just ask you this question. Most 
of what you are talking about really goes back to the original, 
you know, 14 or so jurisdictions. But what about States like 
Ohio that was not covered under preclearance? What about States 
like Pennsylvania and Wisconsin?
    One of the things that the Supreme Court was concerned 
about is that they were determined to say that that is such an 
old record and the data is so old that we can't prove that they 
should still be held to the same standard of preclearance. But 
I think that the situation is worse and it is bigger. So what 
do we do to include those new jurisdictions?
    Ms. Kase. We need to, first of all, do a better job of 
tracking what is happening so that we can ensure that it is a 
living and breathing process, meaning that it doesn't end after 
a certain amount of time; that on an annual basis, we are able 
to look at where there have been violations and ensure that 
those protections are in place where we are seeing them 
happening.
    And yes, you are right, it has expanded. It hasn't gotten 
better. It has, in fact, gotten worse. In 2013--since 2013, we 
have seen that time and time again.
    Chairwoman Fudge. Thank you.
    Ms. Arnwine.
    Ms. Arnwine. Yes. Chief Justice Roberts, may it please the 
court, first, in the Shelby decision, you spoke very powerfully 
about the fact that we all recognize that there still exists 
discrimination in voting, and you felt that Congress had not, 
quote, done its job. Since then, Congress has been very keen 
looking at what are, in fact, the modern-day conditions that 
exist between the States and among the States when it comes to 
voter accessibility and voter fairness.
    What we know at this point, in this eight years that have 
occurred since 2011, is that the States that were previously 
covered by preclearance have, in fact, had some of the worst 
records for, not only poll closures, but for purges, that 
literally millions of voters have been affected by that, that 
those voters deserve the coverage and the protection of our 
laws of our country to not have to be subjected to that voter 
denial before they are able to have their votes counted 
properly. That what you also have in the--you have told this 
Congress to come up with a new set of coverage formula, and 
that coverage formula is designed to look at those violations 
that are the most extreme, that deny the most voters their 
rights to participate.
    Since your directive to Congress, we have held hearings, we 
have compiled and looked at reports of what is happening in the 
States. We are able to come up with a formula that captures for 
preclearance the States that are engaging in the worst 
activities. But at the same time, we also have recognized that 
in this modern era, we have to come up with some additional new 
standards, that we just can't look at voter turnout anymore, we 
can't look at some of the old original casting back standards. 
That instead, that what we need to look at now is to make sure 
that there are better notice provisions, to make sure that on a 
national scale, as you were concerned, that States are able to 
be held accountable. We believe we have done our job and that 
you should uphold our new legislation.
    Chairwoman Fudge. Thank you very much.
    Ms. Lieberman.
    Ms. Lieberman. Chief Justice Roberts, I agree with 
everything my fellow panelists have said, and, you know, the 
writing is on the wall here. I mean, in the first year after 
the Shelby decision came down, 73 percent of the previously 
covered jurisdictions introduced restrictive voting laws. New 
restrictive voting laws have been introduced in 25 States since 
2010, right? And we have seen, through the stories of 
individuals, that Shelby has emboldened, not just the former 
preclearance States, but States around the country, to continue 
to make voting harder, more confusing, more onerous, and more 
burdensome.
    But not only that, not only did Shelby open the door to 
discriminatory practices that would have been halted at the 
outset under preclearance, but it has also made it more 
difficult to challenge those laws, unduly placing the burden on 
already underrepresented voters of color and their advocates.
    So since Shelby, without the law's stopgaps, the 
evidentiary burdens and the costs associated with these 
challenges has fallen even more heavily on the very impacted 
communities that these laws are designed to protect, to 
challenge denials of their fundamental right to vote. And so it 
is very clear that that is simply not tenable. It is not 
working.
    Congress has the opportunity right now before it, with H.R. 
4, to implement Federal voting protections, to place the burden 
where it should be, on the backs of the government agencies 
that are seeking to implement new restrictive voting changes, 
to show that they are not discriminatory.
    Chairwoman Fudge. Well, I think you all can represent me 
anytime. I thank you all so much for being here, and I thank 
you for your testimony. Thank you so much.
    Ms. Arnwine. Thank you very much.
    Chairwoman Fudge. The other panel I don't think has arrived 
yet, right? Okay. They are on their way over.
    Thank you all again very, very much.
    [Recess.]
    Chairwoman Fudge. I hope you all didn't run, but I am glad 
you are here so we can get started.
    Mr. Yang. Well, thank you for waiting.
    Chairwoman Fudge. Absolutely. And since you are our last 
panel, we just know that you all are going to bring it, so we 
can just wrap this up and close up strong.
    Let me just introduce our panelists we have. John Yang, is 
the president and Executive Director of Asian Americans 
Advancing Justice. At Advancing Justice, Mr. Yang leads the 
organization's efforts to fight for civil rights and empower 
Asian Americans to create more just America for all through 
public policy advocacy, education, and litigation. His 
extensive legal background enables Advancing Justice to address 
systemic policies, programs, and legislative attempts to 
discriminate against and marginalize Asian Americans and 
Pacific Islanders and other minority communities.
    Arturo Vargas. Mr. Vargas is the Chief Executive Officer of 
the National Association of Latino Elected Officials, a 
membership organization of Latino policymakers and their 
supporters, governed by a 35-member board of directors. Mr. 
Vargas also serves as CEO of NALEO Educational Fund, an 
affiliated national nonprofit organization that strengthens 
American democracy by promoting the full participation of 
Latinos in civic life.
    Mr. Saenz is the President and General Counsel of the 
Mexican American Legal Defense and Educational Fund, better 
known as MALDEF, where he leads the civil rights organization's 
offices in pursuing litigation, policy advocacy, and community 
education to promote the civil rights of Latinos living in the 
United States. Mr. Saenz rejoined MALDEF in August 2009, after 
spending 4 years as counsel to the Mayor of Los Angeles. Mr. 
Saenz previously spent 12 years at MALDEF, practicing civil 
rights law.
    Welcome, sir.
    And last but not least, Michelle Bishop is the disability 
advocacy specialist for voting rights at the National 
Disability Rights Network, where she is responsible for 
coordinating voting rights initiatives in every U.S. State, 
district, and territory, as well as providing training and 
technical assistance to NDRN's nationwide network regarding 
voting rights and access for voters with disabilities under the 
Help America Vote Act. Ms. Bishop also works in coalition with 
the civil rights community in Washington, D.C., to ensure 
strong Federal policy regarding voting rights and election 
administration.
    I thank you all for being here. And as you know, the 
lighting system, as you have probably just seen it, when you 
begin speaking, the green light will come on. You will have 
five minutes. At one minute remaining, you will see the yellow 
light come on, and then you will see the red light on, which is 
going to indicate that you need to try to wrap up your 
testimony.
    Mr. Yang, you are recognized for five minutes.

 STATEMENTS OF JOHN C. YANG, PRESIDENT AND EXECUTIVE DIRECTOR, 
    ASIAN AMERICANS ADVANCING JUSTICE; ARTURO VARGAS, CHIEF 
   EXECUTIVE OFFICER, NALEO EDUCATIONAL FUND; THOMAS SAENZ, 
  PRESIDENT AND GENERAL COUNSEL, MALDEF; AND MICHELLE BISHOP, 
  VOTING RIGHTS SPECIALIST, NATIONAL DISABILITY RIGHTS NETWORK

                   STATEMENT OF JOHN C. YANG

    Mr. Yang. Thank you very much.
    Thank you very much, Chairwoman Fudge. And let me first 
start by offering my condolences for the loss of Representative 
Cummings. As a civil rights organization that seeks to advance 
the civil and human rights of Asian Americans and to promote a 
fair and just society for all Americans, Representative 
Cummings was certainly a champion for so many of our issues, 
and his loss is going to be a loss, obviously not just for this 
Congress, but for the entire Nation.
    Chairwoman Fudge. Thank you.
    Mr. Yang. I really appreciate having--inviting us to 
testify here today on language access and the importance of 
this to Asian Americans in particular.
    While the Voting Rights Act of 1965 has been--helps to 
ensure language access and assistance to Asian Americans, it is 
only one piece of the puzzle that we need to look at when 
making sure that Asian Americans are represented.
    I think it is important to start off by recognizing the 
Asian American community. The Asian American community is the 
fastest growing community in the United States. Between the 
2000 Decennial Census and the 2010 Decennial Census, the Asian 
American community has grown by 46 percent. Today, we represent 
about 22.6 million in the United States, which is a little bit 
over 6 percent of the American population.
    With respect to voting, we have also increased dramatically 
in numbers over the years. Between the 2012 election and the 
2016 election, we have increased by over 1 million voters.
    It is also important to note that Asian Americans are not 
monolithic. Certainly, there are numerous Asian Americans in 
urban centers throughout the country, but our fastest growing 
populations are in Nevada, Arizona, North Carolina, and 
Georgia. And so the needs of Asian Americans oftentimes are 
very diverse.
    With respect to language access, we represent over a 
hundred different languages from 60 different Asian 
ethnicities. So ensuring that Asian Americans have information 
in the language that they understand best is always a 
challenge. And, unfortunately, language minority voters are 
often denied much of the needed federally required assistance 
at the public level and face numerous barriers at the polls.
    First, problems can arise when poll workers do not fully 
understand voting rights laws. Poll workers have oftentimes, 
unfortunately, been hostile to people that are not similar to 
their own backgrounds or have language access issues. Asian 
American voters are certainly not immune from those issues. 
When you look at some of the experiences that Asian American 
voters have had, oftentimes they are challenged with respect to 
their identification, whether they are a citizen or whether 
they belong at the polls.
    I will be relatively brief and just offer some 
recommendations with respect to what can be done to help with 
respect to language assistance. With respect to language 
assistance, one of the things that we can do is to make sure 
that translated materials are available, accessible, and 
effective in conducting a comprehensive review of election 
materials to make sure that they really identify materials that 
go to the needed communities, that we use certified 
translators, that we use certified translation vendors to 
ensure that those translations are community oriented and using 
community-based organizations as well to ensure that they speak 
in a language--not only in a legal language that is 
appropriate, but in a community-based language and culture that 
is appropriate.
    With respect to the actual polls and taking protections 
that are necessary, one of the things also is making sure that 
you have assistance under section 208 of the Voting Rights Act 
to ensure that people are allowed the assister of their choice. 
Now, election officials should provide bilingual poll workers 
with separate training on language assistance, some of which 
should be done in their covered languages. But regardless of 
whether jurisdictions are covered under section 203, every poll 
worker should be trained to understand the needs of a language 
minority voter. How the poll worker can best assist that voter 
and having maybe role-playing exercises to ensure that, not 
only English-speaking poll workers, as well as language poll 
workers, can really provide the assistance that they need. They 
know how to handle situations as they arise.
    Certainly, the Election Assistance Commission can provide a 
role in that, providing perhaps a funding infrastructure that 
would allow for assistance, allow for best practices, to 
provide some of these exercises that I have described.
    Certainly, jurisdictions have also, on a voluntary basis, 
provided language assistance, provided translated materials. We 
have seen that in Fairfax County, where even though technically 
it was not covered by Section 203, Fairfax County decided to 
offer language assistance to both a Korean-speaking population 
that fell short of section 203 coverage, as well as providing 
it to a Vietnamese-speaking population. These are the types of 
things that can be done on a voluntary basis, but certainly are 
very, very effective for our community.
    Language barriers certainly remain for the Asian American 
community, and it is a fast-growing community. It is a 
community that is going to be transitioning to U.S.-born Asian 
Americans in a relatively short matter of time, that will also 
translate into more voters, people that want to be engaged in 
the electoral process. So I would ask this Committee to 
consider all of the different ways in which that language 
assistance can be provided.
    Thank you very much.
    [The statement of Mr. Yang follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    Mr. Vargas, you are recognized for 5 minutes.

                   STATEMENT OF ARTURO VARGAS

    Mr. Vargas. Thank you, Chairwoman Fudge, Representative 
Aguilar. Thank you for the opportunity to be here today, and we 
join in mourning the passing of Representative Elijah Cummings.
    This organization recognizes that in spite of the 
guarantees that all Americans must have the same right to vote, 
our Nation has not yet attained the goal of full and equal 
participation in our democracy. In the past and the present, 
policies have been adopted that disenfranchise Latino and other 
underrepresented voters, sometimes on the basis of their 
linguistic abilities.
    Linguistic accessibility has long been, and remains, a 
fundamentally important grantor of Latino voters' equal access 
to the ballot. A substantial number of Latinos eligible to vote 
are not yet fully fluent in English, and their ability to cast 
an informed, successful vote depends on their access to 
understandable materials and to persons providing assistance 
with whom they can communicate.
    According to 2018 ACS one-year data, nearly 22 million 
adult U.S. citizens speak Spanish, and approximately 6.3 
million of them are not fluent in English. Americans who are 
not yet fluent in English register and vote at lower rates 
because of the legacy of many decades of intentional efforts to 
exclude voters on the basis of their linguistic ability or 
perceived national origin, as well as ongoing negligence in 
administering language assistance and inattention to 
discouraging effects of some election administration 
procedures.
    Although millions of potential Latino voters enjoy the 
presumed access to multilingual election information and 
materials and to Spanish-speaking poll workers, many are still 
indisputably underserved. Just during the 2018 election cycle, 
reports to the Election Protection coalition hotline, including 
our hotline, the VE-Y-VOTA hotline, which receives calls from 
voters in English and Spanish, included incidences of Spanish-
speaking voters in jurisdictions with large speaking 
populations, including in Southern California, that they were 
not able to request or choose Spanish language ballots. And 
significant number of our callers had unmet need for live 
language assistance in locations, including Warren County, New 
Jersey, and Prince William County, Virginia.
    Many jurisdictions have implemented sweeping and error-
fraught methods of identifying potentially ineligible voters 
among those registered, which disproportionately inhibit 
language minority voters' participation in elections. For 
example, since 2010, a number of States have compared voter 
registration lists to information in other State and Federal 
databases that are not designed or useful for voting purposes 
and have erroneously singled out voters who are mostly 
naturalized citizens for purging or extraordinary demands for 
documentation.
    The nationwide trend of polling place closures and 
realignments also threaten language minority voters' 
participation.
    To combat these trends, Members of Congress should mandate 
the use of inclusive, administrative practices in Federal 
elections and incentivize election administrators to take 
proactive steps to better serve language minority voters. Best 
practices to ensure election accessibility for which Congress 
could provide--by which Congress could provide financial 
support, include regular consultation with community 
institutions and leaders who represent language minority 
communities.
    And I will add, this has been a very effective practice in 
the past for those of us who provide naturalization assistance 
services. We used to have a very healthy partnership with the 
USCIS, and troubleshoot with them on how to better meet the 
needs of legal permanent residents applying for U.S. 
citizenship. The same concept could be applied to working with 
local leaders in identifying best practices for making sure 
voting is accessible to all.
    There should be regular training for all employees on the 
importance and contours of measures to ensure linguistic 
accessibility and adaptation of administrative practices to 
account for and avoid disparate negative impact on language 
minority voters.
    Given the countervailing influence of an administration 
that is inclined to reduce or neglect language accessibility 
mandates, organization and congressional advocates of 
accessibility must be prepared to defend the basic necessity 
and utility of providing language assistance for our elections. 
As the number of Americans with diverse national origins and 
linguistic abilities grow, our effectiveness in engaging those 
citizens as active voters will increasingly determine the 
health of our democracy and the credibility of our government 
as a product of a truly representative political process.
    Thank you.
    [The statement of Mr. Vargas follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    Mr. Saenz, you are recognized for 5 minutes.

                   STATEMENT OF THOMAS SAENZ

    Mr. Saenz. Thank you, Madam Chair and members of the 
Subcommittee.
    As president and general counsel of MALDEF, I lead a set of 
lawyers across the country who are regularly confronting 
barriers to access for Latino voters. Those barriers both occur 
at the polling place and in structures, including election 
structures, that prevent the Latino vote from having the effect 
that it would have. But today, I want to focus on a looming new 
challenge to the Latino community that seems to target 
naturalized citizen voters, and that grows out of this 
administration's campaign that puts `Americans first or' 
citizens first, though that framework seems to leave out 
naturalized citizens.
    We first saw this in the attempt to add a citizenship 
question to Census 2020. In doing so, the administration was 
clearly seeking to trigger a massive undercount of the Latino 
community, and the first effect of that massive undercount 
would be on voting rights. It would have resulted in 
underrepresentation of the Latino community, both in 
reapportionment, redistributing the seats in the House of 
Representatives among the States, and within each State in 
redistricting congressional seats, as well as State legislative 
and local legislative seats as well.
    As we know, the Supreme Court, in an improbable victory, 
prevented the citizenship question from going on Census 2020, 
but the administration's campaign continues to impact and 
prevent naturalized Latino voters from participating. One 
example of this is in the executive order that accompanied the 
decision by the administration to give up attempting to re-add 
a citizenship question to Census 2020.
    In that executive order, the President directed the 
Commerce Department to seek administrative records from both 
Federal and State sources to try to put together a database of 
citizenship around the country. We have now learned, through 
recent media reports, that one of the main mechanisms they will 
use to attempt to identify citizens is DMV records from around 
the country. The problem is, as we recently saw in a case 
litigated by MALDEF and others in Texas, is that DMV databases 
with respect to citizenship are notoriously inaccurate. The 
fact is that someone who goes to the DMV before becoming a 
citizen has no obligation or even any reason to report back to 
the DMV once they have naturalized and become a citizen. They 
would not have any occasion to go back to the DMV until they 
need to renew a driver's license, for example.
    We saw this in Texas where Texas attempted to purge voters 
from the voter rolls, county by county, by directing registrars 
to use faulty DMV data to send notices to those who were not 
citizens when they went to the DMV and tell them that they were 
effectively being accused of being ineligible voters. 
Fortunately, the litigation prevented that from going forward. 
But we now see that the administration is using the same faulty 
databases to create a database of citizens with the intent that 
that then be used where a State or locality might choose to 
test the constitutional limits of one person, one vote, and 
might choose to equalize population among districts based on 
something other than total population. Clearly, that use of 
faulty citizenship data would have a tremendous impact on the 
voting rights of Latinos, and it raises many concerns.
    Accompanying those concerns are the ongoing rhetoric that 
comes from this administration that seems to target every 
Latino person and every immigrant in the country, regardless of 
whether that immigrant has naturalized or not. We are concerned 
that this ongoing rhetoric, including the invasions of privacy 
in using and accessing these inaccurate DMV records, could 
result in further voting rights challenges. We are concerned 
that it could result in unwarranted challenges to someone's 
eligibility to vote by vigilantes who listen to the rhetoric of 
this administration, from the White House and beyond, and 
decide that they are going to challenge particular voters, 
namely, Latino voters, or voters who don't speak English, or 
voters who appear to them to meet Donald Trump's definition of 
who is not an ``American.''
    We see this looming threat to voting rights as potentially 
having application as early as next year, and we are concerned 
that it is a short step from the rhetoric that we hear today, 
to rhetoric that challenges the legal requirement of providing 
language assistance, bilingual assistance, materials in 
languages other than English, to voters. So we are concerned 
that as early as next year's election, we will see 
inappropriate challenges and diminution in providing those 
required materials. We will see challenges to the legitimacy, 
eligibility of voters who are naturalized but do not yet speak 
English, and these are access barriers that are new, and they 
are created entirely by the campaign that we see on a daily 
basis from the Trump Administration.
    We think that this is a looming danger of voting rights 
concern that this Committee--that this Subcommittee should take 
up and address.
    Thank you.
    [The statement of Mr. Saenz follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    Ms. Bishop, you are recognized for five minutes.

                  STATEMENT OF MICHELLE BISHOP

    Ms. Bishop. Chairwoman Fudge, Ranking Member Davis, Members 
of the Committee, thank you for the opportunity to testify 
today. And may I also thank Congressman Cummings, thank you so 
much for your service to this country, and rest in peace, sir.
    My name is Michelle Bishop, and I am the voting rights 
specialist for the National Disability Rights Network. NDRN is 
the nonprofit membership organization for the federally 
mandated Protection and Advocacy, or P&A network.
    According to the Census Bureau, up to 56.7 million 
Americans live with a disability, totaling approximately 19 
percent of the noninstitutionalized U.S. population. The 
Centers for Disease Control and Prevention and Pew Research 
Center believe that number is actually closer to 25 percent, or 
one in four Americans. Further, Rutgers University projected 
35.4 million eligible voters with disabilities, or one-sixth of 
the total American electorate in 2016, and we are politically 
active. Pew reports that people with disabilities are more 
likely to pay attention to Presidential elections and to 
believe that the results matter.
    Despite all of this, America's electoral system has a long 
history of excluding people with disabilities. Let's start with 
the obvious: polling places. The U.S. Government Accountability 
Office found in 2000 that only 16 percent of polling places had 
an accessible path of travel, 27 percent in 2008, and 40 
percent in 2016. Forty percent being the all-time high means 
that less than half of polling places were accessible during 
the 2016 election.
    As polling places are very slowly becoming more accessible, 
the voting stations within them are actually becoming less so. 
In 2008, 54 percent of voting booths were accessible. In 2016, 
only 35 percent. Architectural access and voting station access 
combined, only 17 percent of polling places were found to be 
fully accessible. America's polling places are inexcusably, 
woefully, and unjustly out of compliance with the Americans 
with Disabilities Act.
    As if this weren't enough, the Leadership Conference on 
Civil and Human Rights recently found that 13 States closed an 
overwhelming 1,688 polling places in just 6 years, and 
uncovered an alarming trend: falsely blaming polling closures 
on the ADA. Jurisdictions offered lack of ADA compliance as a 
pretext for closures, despite their admitted lack of 
understanding of the ADA, failure to provide ADA surveys of the 
polling places in question, and grossly inflated cost estimates 
for updating polling places.
    Disability rights advocates and the Department of Justice 
do not advocate for the closure of inaccessible polling places. 
Rather, we allow for temporary, same-day modifications, 
curbside voting as a stopgap measure, and other low-cost best 
practices. In a forthcoming report, NDRN examines the issue of 
polling place closures, ADA compliance, and DOJ enforcement in 
more depth.
    Our report finds that voting jurisdictions that settled 
with the DOJ in the last several years are overwhelmingly not 
closing their polling places. Alternatively, jurisdictions that 
closed or attempted to close significant percentage of their 
polling places typically were not investigated by the DOJ, 
could not provide accessibility surveys, and could not provide 
any evidence of coordination with their State's P&A or other 
disability advocacy organizations. The ADA and DOJ's 
enforcement of it are undeniably being used as a smoke screen 
for voter suppression.
    These barriers have real consequences. Despite the size of 
the disability community and our demonstrated investment in 
elections, people with disabilities continue to vote at a lower 
rate than our nondisabled peers. In 2018, that difference in 
turnout was around 4.7 percent, 6 percent in 2016, and 5.7 
percent in 2012, small percentages that actually equal several 
million voters.
    Immediately preceding passage of the Help America Vote Act, 
the gap in voter participation was actually closer to 20 
percent. The data shows a clear narrowing of the voter 
participation gap since HAVA's passage made voting drastically 
more accessible for people with disabilities.
    To protect the right to vote for all Americans, Congress 
must first and foremost pass the Voting Rights Advancement Act. 
A fully restored Voting Rights Act would prevent questionable 
polling place closures that threaten access to the vote heading 
into the 2020 Presidential election.
    Additionally, congressional funding is sorely needed to 
ensure that elections officials can continually acquire, 
maintain, and improve their polling locations and equipment. 
The territorial government and P&A of the Northern Mariana 
Islands, as well as the Native American Disability Law Center, 
a P&A, also need HAVA funding to ensure access to the vote for 
Pacific Islanders and Native Americans with disabilities. 
Extending funding to the only two P&As excluded from HAVA is a 
simple and no-cost legislative fix.
    Finally, each of the patchwork of Federal laws that ensures 
America's electoral system are accessible to all eligible 
voters must be enforced to their full capacity. America's 
democracy is only as strong as its ability to hear the voices 
of all Americans.
    Thank you.
    [The statement of Ms. Bishop follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you. Thank you very much.
    Mr. Aguilar, you are recognized for five minutes.
    Mr. Aguilar. Thank you, Madam Chair.
    Mr. Yang, if I could start with you, and then kind of work 
our way down to Mr. Vargas and Mr. Saenz as well. And then, Ms. 
Bishop, I have something, a separate question for you.
    You know, we talked about language assistance, and 
obviously there are best practices that seem pretty reasonable, 
you know, ballots in multiple languages. What are some other 
things that we can do? You mentioned poll worker training. What 
are some other ideas that we can do within the language-
assistance frame that we could invest in and support in order 
to make a difference and ensure that people have access to the 
ballot?
    Mr. Yang. Well, I think poll worker training, if I could 
expand on that a little bit, it is really developing training 
modules, because sort of sometimes when people think of poll 
worker training, they are thinking about making sure that they 
have translators or people that speak multiple languages that 
are serving as poll workers, and that is certainly one 
component of it. But the other component is just making sure 
that people that speak English that are working there, that 
still can recognize a situation as it develops and know how to 
handle it.
    For example, if I am accompanying my mother to a polling 
station, then the fact that my mother doesn't speak English 
well, that poll worker has to understand that I am there to 
help and that that is within her right as a voter. And, 
unfortunately, there are a lot of poll workers, not through--
and I am going to be generous here--not through any intent to 
discriminate, but do not understand the laws well enough. And 
so it is really having an infrastructure that has that 
learning--those learning modules in place.
    Some of it is also, again, very, very simple. I am going to 
think about low-hanging fruit, is just having translations in 
trifolds that are sitting on counters that sort of make people 
feel comfortable, that say, oh, I can have an assister of my 
choice here. Oh, there are translated ballots, or there are 
translated materials available. People, citizens, especially 
new immigrants, oftentimes do not understand their rights. And 
so just making them comfortable with the process.
    Certainly, for my organization and speaking, I think, for 
all immigrants, just as you are no less of a citizen because 
you have a disability, you are no less of a citizen because 
English is not your first language. And so our job is to find 
ways to make sure that people feel like they are equal citizens 
in democracy.
    Mr. Aguilar. Thank you.
    Mr. Vargas.
    Mr. Vargas. Congressman, the fact is that there are many 
jurisdictions that get it right, and they have been providing 
language assistance to voters for years. And what we are 
concerned about is those places around the country that are 
newly being required to provide language assistance for the 
first time, and there is no need to really re-create the wheel 
if they can adopt best practices from other jurisdictions. And 
that is, I think, something that Congress could incentivize.
    You know, how could a manual of best practices be provided 
to other jurisdictions who for the first time are being 
required to provide language assistance. So they don't repeat 
the same mistakes that have been committed before, and they 
provide the best access to voters who are newly covered under 
section 203.
    Mr. Aguilar. Thank you.
    Mr. Saenz. And like Mr. Vargas, I would focus on the fact 
that the jurisdictions that are covered by section 203 are 
regularly expanding, and I think we need to find a way to 
anticipate, which is not difficult, where the expansion will 
occur and begin working with those jurisdictions to connect 
them with successful jurisdictions in their own State or where 
they may be the first in a State, with those in other States.
    I also think there is a broader effort about really 
educating the public about folks' rights, so that they 
understand that this is not illegitimate. You don't then have 
vigilante volunteers or others who would add their views that 
nothing like non-English assistance should be being provided. 
So I think there is a broader education effort that should 
start with where we know the next set of jurisdictions to be 
covered will be.
    Mr. Aguilar. Thank you, Mr. Saenz.
    Ms. Bishop, I wanted to talk a little bit about, in your 
testimony, you talked about the Help America Vote Act and the 
participation gap among those voters with and without 
disabilities. You know, how has HAVA helped close the gap? You 
mentioned it was closer to 20 percent and then went down to, 
oh, below five. Can you talk a little bit about that?
    Ms. Bishop. Absolutely.
    Prior to the Help America Vote Act, we were doing even less 
to make America's elections accessible to all--in fact, 
profoundly little. I am sure all of us in the room remember 
voting on punch card systems. Those are not only difficult for 
the average American to line up properly and use but virtually 
impossible for people with certain types of disabilities.
    Many American voters with disabilities voted privately and 
independently for the very first time after HAVA was passed. 
And that includes Americans who began voting when they were 18 
and weren't able to vote with privacy and independence until 
they were in their 60s and 70s, who spent their entire lives 
having to have somebody else mark their ballot for them because 
that ballot was not accessible.
    In itself, the privacy and independence of your ballot 
should be a right. It is also a security feature of our 
elections, that I can trust--because I marked my ballot 
independently--that it has been marked in the way that I 
intend, rather than having to take a leap of faith as a voter 
who, potentially, is blind having to ask someone else to mark a 
ballot that I will never be able to see and know that someone 
marked the ballot the way that I intended.
    And so it was a longstanding failure, I believe, of our 
electoral process, that we were not providing accessibility of 
the ballot to voters with disabilities.
    Accessibility of polling places itself is a new issue. The 
Americans with Disabilities Act is the gold standard in making 
sure that polling places are accessible. It did not become law 
until 1990. There is one law that predates that that was passed 
in the early 1980s, the Voting Accessibility for the Elderly 
and Handicapped Act, but that still was the early 1980s. Prior 
to that, we were doing virtually nothing to make sure that the 
electoral process was accessible to Americans with 
disabilities.
    So HAVA represents an enormous leap forward in making sure 
that everyone is able to cast their ballots, and we absolutely 
believe that is a major factor in closing that gap, absolutely. 
If your electoral process is not accessible to you, that is 
sending a message that you are not welcome and that your vote 
does not matter.
    Mr. Aguilar. Thank you.
    Chairwoman Fudge. Thank you.
    Ms. Bishop, let me just--I don't even know where to begin. 
I mean, we know the law. We know ADA exists. We know HAVA 
exists. What is their rationale for not complying with the law? 
This is what I am trying to figure out.
    Ms. Bishop. There are many. There are many reasons.
    We hear very often--I work a lot with State and local 
elections officials, as do the organizations that are in our 
network, the P&As. We hear very often that it is difficult to 
find polling places that are compliant with the Americans with 
Disabilities Act.
    They are not entirely wrong about that. Compliance with the 
ADA overall is lacking. There are not that many locations that 
are fully compliant. And they also have to be willing to serve 
as a polling place, which is voluntary. We hear that often.
    We hear that finding polling places that are suitably 
located, as well, and a large enough number of them.
    We also get accounts of poll workers who are not adequately 
trained and ready to interact with voters with disabilities 
when they come into the polling place. So they are not 
necessarily aware of all of the accommodations they are 
required to provide.
    There is a widespread failure in the United States to 
really fully understand all the provisions of the Americans 
with Disabilities Act--in particular, how they apply to 
elections.
    I consider it primarily an enforcement issue. And that is 
why we believe the Voting Rights Advancement Act is so 
important. The Department of Justice and organizations like the 
P&As have to be able to go out and push for that enforcement 
and that compliance with the ADA without the threat that the 
response will be to close large numbers of polling places. We 
don't make polling places accessible by closing them. We make 
them accessible by making them accessible.
    But without the protections of preclearance in the Voting 
Rights Act, our job becomes extensively more difficult.
    Chairwoman Fudge. Thank you.
    And to any of the gentlemen: I listened to each of you say 
that education and education of poll workers, et cetera, was 
extremely important. Who do you believe is responsible for that 
education and that outreach?
    Mr. Vargas. Well, clearly, the election officials at the 
local level are responsible for that. And they should be held 
accountable to make sure that they provide that education for 
all the poll workers they employ.
    We also know that many of them are challenged in finding 
enough poll workers with the language ability necessary to meet 
the needs in local communities.
    So I think one of the areas where Congress could be helpful 
is to provide more incentives, to provide--to identify and help 
local elections officials recruit and train poll workers with 
the language abilities needed to help the voters in their 
jurisdictions.
    Chairwoman Fudge. So, now, let me just ask this question, 
since you are the CEO of NALEO. Do you all not, at points, just 
recommend to the local boards of elections, ``We have these 
people who are willing to serve on election day or whatever to 
get trained; these are people who can accommodate the issues 
that we have''? Do you make those recommendations and they just 
don't accept them, or how does that work?
    Mr. Vargas. We certainly do. And we also try to identify 
other strategies to expand the number of people who are 
eligible to be a poll worker. And, remember, for some folks, 
they have to give up a day of work.
    Chairwoman Fudge. Sure.
    Mr. Vargas. And that is not something that people are able 
to do, many times, if they are working folks, to give up a full 
day's work and not get compensated by their employers.
    Which is one of the reasons why we supported legislation in 
California to allow high school students to be able to work as 
poll workers. Even though they, themselves, may not have the 
right to vote yet, they did have the skill sets in order to 
help people through the voting process.
    So there are other incentives and strategies that can be 
employed to do that.
    Chairwoman Fudge. Mr. Saenz, let me go back to this 
discussion about naturalized citizens. A citizen is a citizen. 
So what is it about our process that would single out someone 
that is a naturalized citizen?
    Mr. Saenz. So, because naturalized citizens are, of course, 
immigrants themselves, they have families that include folks 
who are still immigrants. They may still feel that they have 
vulnerabilities that they had as immigrants.
    So, when you are confronted with rhetoric, as we see daily 
from the Trump Administration, that seems to discourage 
participation of immigrants in all elements of governance, 
there is no way that naturalized citizens are naturally immune 
from that. So there is a deterrent effect.
    Chairwoman Fudge. So you said they don't go at all. They 
don't even get to the point where they get to the polls.
    Mr. Saenz. In some cases, they would be deterred. They 
would have fears about their families. In other cases, they 
would be concerned that they, themselves, might be challenged, 
particularly if they are a citizen but a citizen who needs 
language assistance and language assistance in some way at the 
polling place.
    But there is also, of course, this danger of accessing 
inaccurate data. Even though it is going to be used in 
aggregate, it still means that a naturalized citizen is aware 
that the Federal Government is seeking information from their 
State DMV that may inaccurately identify them as still a 
noncitizen. That, too, can have a deterrent effect, or it can 
encourage others, who may be led by the rhetoric, to challenge 
that person's participation in elections.
    So it all stems from practices and rhetoric from the 
administration that is not seeking accurate data, particularly 
with respect to naturalized citizens, that is invading privacy, 
that is raising those kinds of concerns, and that is 
diminishing the citizenship, if you will, of those who are not 
native-born citizens of this country.
    Mr. Yang. If I could add just very briefly to that, I think 
that is exactly right.
    With respect to the Asian-American community, about two-
thirds of our community are immigrants, and over 90 percent, 92 
percent of the Asian community are immigrants or children of 
immigrants. So, although, obviously, our community is 
naturalizing at a very quick, fast rate, the traditional 
trajectory is that there are going to be noncitizens within 
each of those households. So what Tom is saying is exactly 
right. It is within that household these fears that are being 
raised about what it means to be a noncitizen.
    And we are not even talking about undocumented immigrants 
here. We are talking about legal, permanent residents that have 
every right to be here. For their children that may be of 
voting age, there are certain fears that are invoked about how 
much they want to put their family that includes all sorts of 
different types of immigrants into that public eye.
    Chairwoman Fudge. So what do you think that we can do to 
combat that?
    Mr. Saenz. Well, I think there has to be a counter-
rhetoric, if you will, that can come from the Congress that can 
also help elected officials who want to make sure that there is 
widespread knowledge that everyone, including naturalized 
citizens, has every right to vote.
    By the same token, I think that this Subcommittee should 
seriously look at whether there should be limits on the 
accessing of data known to be inaccurate to determine 
citizenship population, which is what is ongoing right now with 
the Commerce Department.
    Now, MALDEF, together with Asian Americans Advancing 
Justice and others, have challenged that effort in court. But 
there also needs to be additional efforts to prevent accessing 
private data that is knowingly inaccurate and attempting to 
somehow say that is an indication of who are citizens and where 
our citizens are in the country.
    Chairwoman Fudge. You are challenging under what kind of an 
action?
    Mr. Saenz. So we have filed in Federal court in Maryland, 
challenging the Executive Order that involves accessing these 
administrative records under a number of claims, including the 
Administrative Procedure Act, but also including constitutional 
claims, that the same unconstitutional racial discriminatory 
intent that motivated the addition of the citizenship question, 
or the attempted addition of the citizenship question, is 
behind this effort as well.
    Chairwoman Fudge. Okay.
    Mr. Aguilar, do you have anything else you want to----
    Mr. Aguilar. No, I am good.
    Chairwoman Fudge. Okay.
    The last thing I want to ask you--and if you could just do 
it quickly--is, if there is one thing that you think we can 
have an effect on or one thing you want us to do, from this 
Committee's perspective, that will make the situation better 
that you are experiencing, what would that one thing be?
    Why don't we start with Ms. Bishop.
    Ms. Bishop. Just one?
    Chairwoman Fudge. Just one. Your number one.
    Mr. Aguilar. Not all of our witnesses have answered the 
question with just one, so just----
    Chairwoman Fudge. Your number one.
    Ms. Bishop. I am trying to choose amongst so many things.
    I think that one of the most important things that Congress 
can do to support making elections fully accessible to all is 
to provide funding. States need funding to upgrade their 
equipment, to upgrade their polling locations. The P&A network 
needs additional funding to do the work that we do to push them 
forward.
    But I think we also--one of the things I have not yet 
mentioned today is research and development funding to support 
better solutions.
    I mentioned earlier that, for the first time, many 
Americans with disabilities were able to vote privately and 
independently because of the Help America Vote Act. All of the 
voting systems we are using today could be both more accessible 
and more secure. We need effective research and development to 
develop better solutions that will solve both of those 
problems.
    Elections equipment is not a big-money industry if you work 
in tech. If Congress is able to support those efforts, I do 
believe that we could develop voting solutions that are both 
more accessible and more secure, going forward.
    Chairwoman Fudge. Thank you.
    Mr. Saenz.
    Mr. Saenz. I would cite what I just said, which is looking 
into this accessing of State databases that are known to be 
inaccurate. Because even accessing the data, as we saw with the 
short-lived election fraud task force, can have chilling 
effects on voters.
    Chairwoman Fudge. Thank you.
    Mr. Vargas.
    Mr. Vargas. I would say a fully seated, staffed, and funded 
Election Assistance Commission.
    Mr. Yang. I would ditto all of that.
    And I guess I can't overstate promoting best practices and, 
through that, education and transparency. It is those best 
practices, making sure that the State, especially all of you, 
have connections to local and State elected officials, local 
State representatives, make sure they understand this.
    And holding them accountable. Now, obviously, there--what I 
mean by ``holding them accountable,'' it doesn't necessarily 
mean, sort of, through the elected representative, but making 
sure that they understand the consequences of this. Because, 
again, what we are here trying to do is represent the American 
people.
    Chairwoman Fudge. Thank you.
    And I thank you all. This has been a very interesting day, 
just to understand the myriad of things that are happening 
across this country that make it more difficult for people to 
vote. I thank you for the work you do. I thank you for taking 
the time to come to testify today. And I hope that you will 
continue to fight the good fight.
    Because, obviously, there are certain things we can do and 
certain things we cannot. But I appreciate your sharing with us 
what you are seeing on a daily basis, and it gives us some idea 
of what we can do as we look at legislation going forward.
    Again, I thank you all so much for being here.
    And, without objection, this Subcommittee stands adjourned.
    [Whereupon, at 1:27 p.m., the Subcommittee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
